No. ____
In the

Supreme Court of the United States
_______
ALICE PERKINS, FREDRICK PERKINS,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE
Respondent.
_______
On Petition for A Writ of Certiorari
To the United States Court of Appeals for the
Second Circuit
_______
PETITION FOR A WRIT OF CERTIORARI
_______
MARGARET A. MURPHY
Counsel of Record for Petitioners
5354 Briercliff Drive
Hamburg, NY 14075
mam@mamurphypc.com
(716) 867-1536

Of counsel:
GARY D. BOREK
99 Victoria Boulevard
Cheektowaga, NY 14225
(716) 839-4321

i

QUESTIONS PRESENTED
This Court is presented with a question of first
impression, as to the taxability of income derived
from the sale of sand and gravel, mined from treatyprotected land by an enrolled member of the Seneca
Nation of Indians (“Seneca Nation”). Upon the
granting of certiorari, the Court will examine the
language in two federal treaties, promising not to
disturb the “free use and enjoyment” of lands by the
Seneca Nation and “their Indian friends residing
thereon and united with them,” and protecting these
lands “from all taxes” for any purpose. Treaty with
the Six Nations (“Canandaigua Treaty”), art. III,
Nov. 11, 1794, 7 Stat. 45; Treaty with the Senecas
(“1842 Treaty”), art. 9th, May 20, 1842, 7 Stat. 590.
Congress has explicitly stated the Internal Revenue
Code “shall be applied to any taxpayer with due
regard to any treaty obligation of the United States
which applies to such taxpayer.” 26 U.S.C.A. § 894
(a)(1)(West).
The question presented is whether the United
States Court of Appeals and the United States Tax
Court have given “due regards” to the treaty
obligations of the United States by finding these
treaties had no textual support for an exemption
from federal income tax applicable to an enrolled
Seneca member whose income is derived from the
lands of the Seneca Nation. Perkins v. Comm’r, 970
F.3d 148, 162-67 (2d. Cir. 2020).

ii

CORPORATE DISCLOSURE STATEMENT
No corporation is a party to this case and no
corporate disclosure statement is required.
Petitioner Alice Perkins is a sole proprietor
doing business under the assumed name, A&F
Trucking. Her husband Fredrick Perkins works for,
but has no ownership in, his wife’s business.
PROCEEDINGS BELOW
United States Tax Court, Docket No. 28215-14,
Perkins v. Comm’r of Internal Revenue
•

Plurality Opinion, filed Mar. 1, 2018, reported
at 150 T.C. 119, granting Commissioner’s
summary judgment motion

•

Decision, entered on May 30, 2018, based on
stipulated facts submitted by the parties, and
setting forth the deficiencies and penalties due
on joint tax returns for calendar years 2009
and 2010

United States Courts of Appeal for the Second
Circuit, Docket No. 19-2418, Perkins v. Comm’r of
Internal Revenue
•

Opinion, decided and electronically filed on
Aug. 12, 2020, (Document 61-1) and reported
at 970 F.3d 148, affirming the judgment of the
United States Tax Court

iii

•

Order, electronically filed on Nov. 16, 2020
(Document 88), denying petition for rehearing
or, in the alternative for rehearing en banc

•

Mandate, electronically filed on Nov. 23, 2020
(Document 89-1), affirming, and remanding for
further proceedings.

iv

TABLE OF CONTENTS
QUESTIONS PRESENTED ………………………

Page
i

CORPORATE DISCLOSURE STATEMENT …..

ii

PROCEEDINGS BELOW………………………….

ii

TABLE OF AUTHORITIES ………………………

vii

OPINION BELOW ………………………………….

1

JURISDICTION …………………………………….

1

CONSTITUTIONAL, TREATY, AND
STATUTORY PROVISIONS INVOLVED ……..

2

STATEMENT OF THE CASE …………………….

6

REASONS FOR GRANTING THE
PETITION ……………………………………………

8

I
.

THE SECOND CIRCUIT FAILED TO
EXAMINE WHETHER CONGRESS
INTENDED TO TAX THE SENECAS …..
A.

The Court Must Ascertain and
Follow the Original Meaning of the
Treaty or Law Before it……………….

9

10

v

1. The Canandaigua Treaty preserved the
autonomy of the United States and the
Senecas over land and people within
their respective jurisdictional boundaries ………………………………………

11

2. Any ambiguities with the language
used in the Canandaigua Treaty must
be resolved in favor of the Senecas ……

16

3. The original meaning of the 1842
Treaty is clear from its text, and
extratextual sources should not be
used to cloud the meaning of its text …

21

B. Congress Has Not Enacted Any Law
Allowing Respondent Commissioner to
Assess or Collect Income Tax from
Enrolled Senecas, Living and Working on
the Seneca Nation Territory ……………….

25

II BY GRANTING CERTIORARI, THE COURT
WILL ENSURE THESE TREATIES ARE
HONORED AND THAT THE RULE OF
LAW PREVAILS, NOT THE RULE OF THE
STRONG ………………………………………...

29

CONCLUSION …………………………………….

33

vi

APPENDIX:
Opinion of the United States Court of
Appeals, Second Circuit, dated August
1a
12, 2020……………………………………
Decision of the United States Tax Court,
dated May 30, 2019……………………….. 40a
Opinion of the United States Tax Court,
filed March 1, 2018 ………………………. 42a
Denial of Rehearing of the United States
Court of Appeals for the Second Circuit,
dated November 16, 2020 ……………….. 70a

vii

TABLE OF AUTHORITIES
CASES
Elk v. Wilkins,
112 U.S. 94 (1884)…………………………… 27-28 n.12
Fellows v. Blacksmith,
60 U.S. (19 How.) 366 (1856) ……………………….. 24
Herrera v. Wyoming,
139 S. Ct. 1686 (2019)………………………… 8, 26, 32
Lazore v. Comm’r,
11 F.3d 1180 (3d. Cir. 1993)…………11, 12, 17, 20, 25
Lone Wolf v. Hitchcock,
187 U.S. 553 (1903)……………………………………..12
McClanahan v. State Tax Comm’n. of Arizona,
411 U.S. 164 (1973) …………………………………….26
McGirt v. Oklahoma,
140 S. Ct. 2452 (2020)……………………………passim
Minnesota v. Mille Lacs Band of Chippewa
Indians, 526 U.S. 172 (1999)…………………22, 26, 32
Perkins v. Comm’r,
150 T.C. 119 (2018…………………………………

ii, 1

viii

Perkins v. Comm’r,
970 F.3d 148 (2d Cir.(2020)…………………….. passim
Pollock v. Farmers’ Loan & Trust Co.,
158 U.S. 601 (1895)……………………………………. 25
Squire v. Capoeman,
351 U.S. (1956)…………………………………..... 10, 11
The New York Indians,
72 U.S. (5 Wall.) 761 1866)……………………… 24, 30
Tulee v. Washington,
315 U.S. 681(1942)…………………………………16, 18
United States v. Dion,
476 U.S. 734 (1986)…………………………………… 26
Washington State Dep’t of Licensing
v. Cougar Den, Inc.,
139 S. Ct. 1000 (2019) …………………… 8, 17, 18, 22
CONSTITUTIONAL, TREATY, & STATUTORY PROVISIONS
25 U.S.C.A. § 71 (West)………………………………..27
25 U.S.C.A. §359 (West) ………………………… 11 n.5
26 U.S.C.A. § 894 (a)(1) (West)………………… i, 5, 29
26 U.S.C.A. § 6213(a)(West) ……………………………7

ix

26 U.S.C.A. § 6214(a)(West) ……………………………7
26 U.S.C.A. § 7482(a)(1)(West) ………………………. 8
26 U.S.C.A. § 7482(b)(1)(A)(West) …………………….8
26 U.S.C.A. § 7742 (West) ……………………………...7
26 U.S.C.A. § 7852(d) (West)……………………… 5, 28
28 U.S.C.A. § 1254(a) (West)……………………………1
General Allotment Act of 1887, ch. 119,
24 Stat. 391 §1 (1887) …………………………… 11 n.5
Indian Citizenship Act of 1924,
Pub. L. No. 68-175, 43 Stat. 253………………..27 n.12
Treaty with the Senecas (“1842 Treaty”),
May 20, 1842, 7 Stat. 586 – 591 ………………. passim
Treaty with the Six Nations
(“Canandaigua Treaty”), Nov. 11, 1794,
7 Stat. 44 – 47 …………………………………… passim
Treaty with the Six Nations
(“Fort Harmar Treaty”), Jan. 9, 1789,
7 Stat. 33-34……………………………………………..15
Treaty with the Six Nations
(“Fort Stanwix Treaty”), Oct. 22, 1784,
7 Stat. 15 -16………..............................................15, 16
U.S. Const. art. I, §2, cl. 3 …………………………… 25
U.S. Const. art. VI, cl. 2 ………………………………...2

x

U.S. Const. amend XVI …………………………….9, 27
OTHER AUTHORITIES
Cohen’s Handbook of Federal Indian Law
(Lexis Nexis 2012) ……………………………………..11
David Sachs, Is the 19th Century Doctrine
of Treaty Override Good Law for Modern
Day Tax Treaties?, 47 Tax Law. 867 (1994) ……… 28
Felix S. Cohen, Handbook of Federal
Indian Law (1942 ed) ………………… 9, 12-13, 13 n.6
In Defense of Property,
118 Yale L. J. 1022 (April 2009)…………………….. 29
Income Tax-Restricted Lands of Quapaw Indians,
34 U.S. Op. Atty. Gen. 439 (1925) …………………...28
Income Tax-Tom Pavatea, Hopi Indian,
35 U.S. Op. Atty. Gen. 107 (1926) …………………...28
Jack Campisi & William A. Starna,
On the Road to Canandaigua: The Treaty of 1794,
19 Am. Indian Q. 467 (1995) …………… 14-17, 17 n.8
Maria Diaz-Gonzalez, The Complicated
History of the Kinzua Dam and How It
Changed Life for the Seneca People, Feb. 12, 2020,
https://www.alleghenyfront.org/the-complicatedhistory-of-the-kinzua-dam-and-how-it-changed-lifefor-the-seneca-people/ ……………….. 6-7 n.3, 31 n.13

xi

The Seneca Lands, 1 U.S. Op. Atty. Gen. 465
(Apr. 26, 1821)…………………………………………..14
Thomas Donaldson, Extra Census
Bulletin. Indians. The Six Nations
of New York (U.S. Census Printing
Office, Cornell University Press 1995)
(1892)……………………………………… 13, 19-20 n.9

1

OPINION BELOW
The opinion of the United States Court of
Appeals for the Second Circuit (“Second Circuit”) is
reported at 970 F.3d 148 (2020) and is reprinted in
the Appendix, App. 1a. The order of the Second
Circuit, denying the petition for rehearing is
unreported, but is reprinted in the Appendix, App.
70a.
The opinion of the United States Tax Court
(“Tax Court”) is reported at 150 T.C. 119 (2018) and
is reprinted in the Appendix, App. 42a.

JURISDICTION
On August 12, 2020, the Second Circuit filed
its opinion, affirming the plurality opinion entered
by the Tax Court on March 1, 2018. On November
16, 2020, the Second Circuit denied a petition for
rehearing. This Court has jurisdiction under 28
U.S.C.A. § 1254(1).
The Petition for a Writ of Certiorari is timely
based on this Court’s order, issued on March 19,
2020, extending the filing deadline to 150 days from
the date of the order denying rehearing.

2

CONSTITUTIONAL, TREATY, AND
STATUTORY PROVISIONS INVOLVED
U.S. Const. art. VI, cl. 2
The Supremacy Clause of the United States
Constitution provides that:
This Constitution, and the Laws of the
United States which shall be made in
Pursuance thereof; and all Treaties
made, or which shall be made, under
the Authority of the United States, shall
be the supreme Law of the Land; and
the Judges in every State shall be
bound thereby, any Thing in the
Constitution or Laws of any State to the
contrary notwithstanding.

Canandaigua Treaty, Nov. 11, 1794, 7 Stat. 44-46
The treaty opens with the “President of the
United States having determined to hold a
conference with the Six Nations of Indians, for the
purpose of removing from their minds all causes of
complaint and establishing a firm and permanent
friendship with them . . . . 7 Stat. at 44.
After defining the Seneca Nation’s boundaries,
Article III further provides:
Now, the United States acknowledge all
lands within the aforementioned
boundaries, to be the property of the
Seneka nation; and the United States

3

will never claim the same, nor disturb
the Seneka nation, nor any of the Six
Nations, or of their Indian friends
residing thereon and united with them,
in the free use and enjoyment thereof:
but it shall remain theirs, until they
choose to sell the same to the people of
the United States, who have the right to
purchase.
7 Stat. at 45.
In exchange for the promises made by the
United States to the Six Nations, Article IV provides:
Now, the Six Nations, and each of them,
hereby engage that they will never
claim any other lands within the
boundaries of the United States; nor
ever disturb the people of the United
States in the free use and enjoyment
thereof.
Id.
The treaty concludes with Article VII, which
provides:
Lest the firm peace and friendship now
established should be interrupted by the
misconduct of individuals, the United
States and Six Nations agree, that the
injuries done by individuals on either
side, no private revenge or retaliation
shall take place; but, instead thereof,
complaint shall be made by the party

4

injured, to the other . . . and such
prudent measures shall then be
pursued as shall be necessary to
preserve our peace and friendship
unbroken; until the legislature (or the
great council) of the United States shall
make other equitable provisions for the
purpose.
7 Stat. at 46.

1842 Treaty, May 20, 1842, 7 Stat. 586 – 591
In the first article of the treaty, the parties to
this compact agreed the Senecas:
shall and may continue in the
occupation and enjoyment of the whole
of the said two several tracts of land,
called the Cattaraugus Reservation, and
the Allegany Reservation with the same
right and title in all things, as they had
and possessed therein immediately
before the date of the said indenture,
saving and reserving to the said
Thomas Ludlow Ogden, and Joseph
Fellows the right of pre-emption, and all
other the right and title which they
then had or held in or to the said tracts
of land.
7 Stat. at 587. In the ninth article of the treaty, the
parties:

5

mutually agree to solicit the influence of
the Government of the United States to
protect such of the lands of the Seneca
Indians, within the State of New York,
as may from time to time remain in
their possession from all taxes, and
assessment for roads, highways, or any
other purpose until such lands shall be
sold and conveyed by the said Indians,
and the possession thereof shall have
been relinquished by them.
7 Stat. at 590.

26 U.S.C.A. § 894 (a) (1) (West 2021)
“(a) Treaty provisions.-(1) In general.--The provisions of this title shall be
applied to any taxpayer with due regard to any
treaty obligation of the United States which applies
to such taxpayer.”
26 U.S.C.A. § 7852 (d) (West 2021)
“(d) Treaty obligations.-(1) In general.--For purposes of determining the
relationship between a provision of a treaty and any
law of the United States affecting revenue, neither
the treaty nor the law shall have preferential status
by reason of its being a treaty or law.

6

(2) Savings clause for 1954 treaties.--No provision of
this title (as in effect without regard to any
amendment thereto enacted after August 16, 1954)
shall apply in any case where its application would
be contrary to any treaty obligation of the United
States in effect on August 16, 1954.”

STATEMENT OF THE CASE
Petitioner Alice Perkins (“Alice”) is an enrolled
Seneca, Perkins, 970 F.3d at 150, whose childhood
home and school was torn down by the United States
for the construction of the Kinzua Dam. 1 She
continues to live on the Allegany Territory with her
husband, adhering to the customs, laws and
traditions of the Seneca Nation. Id.
As a sole proprietor, Alice operates A&F
Trucking. 2 The Seneca Nation had given “Alice
Perkins d/b/a A&F Trucking” permission and
exclusive rights to mine and sell sand and gravel
from a gravel pit located within a flood zone 3 on the
1Alice

J. Perkins Aff. at 8 ¶37, Perkins v. U.S., No. 16-cv-00495
(W.D.N.Y. May 18, 2018), ECF No. 61-2. The Second Circuit
took judicial notice of the parties’ filings in a tax refund case
filed in the United States District Court for the Western
District of New York, involving the same parties and subject
matter. Perkins¸ 970 F.2d at 152 n.2.
Id. at 5 ¶20; Fredrick Perkins Aff. at 2 ¶7, Perkins v. U.S., No.
16-cv-00495 (W.D.N.Y. May 18, 2018), ECF No. 61-2.
2

Alice J. Perkins Aff. at 8 ¶¶ 36-41. The land has been
designated as a flood zone after the construction of the Kinzua
Dam. Maria Diaz-Gonzalez, The Complicated History of the

3

7

Allegany Territory. Id. at 152. On June 13, 2009, the
Seneca Nation imposed a moratorium on all mining.
Id. Alice immediately stopped her mining operations
but was later given permission by the Seneca Nation
to sell the stockpiles of sand and gravel mined prior
to June 13, 2009. Id.
Alice claims the revenue generated from the
sale of sand and gravel extracted from this gravel pit
is exempt from federal taxation. Id. Alice and her
husband (collectively the “Perkinses”) were late in
filing their joint income tax returns but reported the
income from the sale of sand and gravel from the
Allegany Territory as exempt income. Id. at 150.
The Internal Revenue Service audited the 2008 and
2009 joint returns, adjusting the business income to
include revenue generated from the sale of sand and
gravel from the lands of the Seneca Nation. Id.
Based on these audits, the IRS sent a notice of
deficiency, assessing taxes, penalties, and interest
due for each tax year. Id. at 152. The Perkinses
then challenged the 2008 and 2009 assessments
before the Tax Court, id. at 150, having subject
matter jurisdiction pursuant to 26 U.S.C.A.
§§06213(a), 6214(a), and 7742.
On March 1, 2018, the Tax Court issued a
plurality opinion, granting the Commissioner’s
summary judgment motion. Id. at 153. The Tax
Kinzua Dam and How It Changed Life for the Seneca People,
Feb. 12, 2020, https://www.alleghenyfront.org/the-complicatedhistory-of-the-kinzua-dam-and-how-it-changed-life-for-theseneca-people/.

8

Court then issued a decision judgment on May 30,
2019.
After the Perkinses filed a timely notice of
appeal, Perkins, 970 F.3d at 153, the Second Circuit
heard the appeal pursuant to 26 U.S.C.A.
§07482(a)(1) (West 2021), based on venue pursuant
to 26 U.S.C.A. § 7482(b)(1)(A) (West 2021).

REASONS FOR GRANTING THE PETITION
In the last two years, this Court has examined
and affirmed doctrines for ascertaining and following
the original meaning of Indian treaties and statutes,
and for applying liberal rules of construction for such
treaties and statutes. See McGirt v. Oklahoma, 140
S. Ct. 2452 (2020); Herrera v. Wyoming, 139 S. Ct.
1686 (2019); Washington State Dep’t of Licensing v.
Cougar Den, Inc., 139 S. Ct. 1000 (2019). Consistent
with these precedents, the Perkinses argue that
Congress never intended income derived from
working the land on the Seneca Nation aboriginal
territory to be taxed. In their rehearing petition, The
Perkinses offered these precedents to shed light on
the errors made in the Second Circuit’s opinion. The
circuit court rejected the petition, even though its
opinion never cited, or applied the doctrines reaffirmed in, McGirt, Herrera, and Cougar Den.

9

I
THE SECOND CIRCUIT FAILED TO
EXAMINE WHETHER CONGRESS
INTENDED TO TAX THE SENECAS
In 1913, Congress was given the constitutional
authority to impose a federal tax on income, with the
ratification of the Sixteenth Amendment. U.S. Const.
amend XVI. The Second Circuit erred by finding the
historical contexts of the Canandaigua Treaty and
the 1842 Treaty make it “nearly impossible for
parties to treaties concluded prior to 1913 to have
contemplated an exemption to a tax on income.”
Perkins, 970 F.3d at 155. The Second Circuit erred
by focusing on the issue of an exemption, instead of
focusing on whether Congress intended to tax.
In 1942, Felix S. Cohen, one of the foremost
experts in the field of Indian jurisprudence wrote the
following regarding federal income taxes:
In considering federal taxation of Indian
income, one finds the courts concerned
not, in the case of the state, with the
question of whether the state may tax,
but with the question of whether the
Federal Government has intended to
tax.
Felix S. Cohen, Handbook of Federal Indian Law
(“1942 Handbook”) 265 (1942 ed.)
This Court has found a federal statute
enacted in 1887 showed Congress never intended to
impose such a tax on income derived from the land

10

by Indians who were allottees of federal lands.
Squire v. Capoeman, 351 U.S. 1, 7-8 (1956). The
Court’s
focus
in
Squire
was ascertaining
congressional intent in enacting the General
Allotment Act of 1887. 4
A.

The Court Must Ascertain and
Follow the Original Meaning of the
Treaty or Law Before it.

In Squire, the Court found the General
Allotment Act of 1887 evinced congressional intent
not to tax income derived from the land allotted to,
and held in trust by, the federal government for
“non-competent” Indians. 351 U.S. at 6-7.
The
Court acknowledged the Act was “not couched in
terms of nontaxability,” but found “the general words
‘charge or incumbrance’ might well be sufficient to
include taxation.” Id. More importantly, the Court
found income earned in 1942 from harvesting timber
was exempt for federal income tax, id. at 3-5, even
though the statute “was antedated the federal
income tax by 10 years,” a fact this Court found
“irrelevant.” Id. at 7.
The Perkinses’ joint tax return filed in 2008 and 2009 reported
income from the sale of sand and gravel as being exempt due to
the provisions of the General Allotment Act of 1887. An
accountant included this information in the returns.
4

After obtaining counsel to challenge the illegal assessments, the
Perkinses claimed the income was exempt due to federal Indian
treaties. Contrary to the record on appeal, the Second Circuit
repeatedly stated the Perkinses abandoned a claim based on
the General Allotment Act, which was never asserted in the
Tax Court. Perkins, 970 F.3d at 150, 153, 154.

11

Although the 1887 Act has no applicability to
the Seneca Nation, its enrolled members, or its
territory, 5 Squire does illustrate the liberal rules of
construction favoring Indians in federal income tax
cases. More importantly, Congress excluded the
Senecas from this Act, because it never intended to
narrow the protection already given to the Seneca
people in federal treaties. Therefore, contrary to the
Second Circuit’s opinion, Perkins, 970 at 155,
“parties to treaties concluded prior to 1913” could
promise to co-exist “peacefully, neither imposing
their laws or religion on the other.” Lazore v.
Comm’r, 11 F.3d 1180, 1186 (3d. Cir. 1993).
1. The Canandaigua Treaty preserved
the autonomy of the United States and
the Senecas over land and people
within their respective jurisdictional
boundaries.
“[P]owers that are lawfully vested an Indian
nation are not, in general, delegated powers granted
by express acts of Congress, but rather inherent
powers of a limited sovereignty that has never been
extinguished . . . . and persists unless diminished by
treaty or statue. . . .” Cohen’s Handbook of Federal
Indian Law 2 (Lexis Nexis 2012). Today, Indian
nations are “regarded as dependent nations,”
because Congress, not the courts, have the power to
unilaterally abrogate treaty rights and strip Indian
The General Allotment Act of 1887 “specifically excludes the
Seneca Nation of New York from its provisions.” See General
Allotment Act of 1887, ch. 119, 24 Stat. 391 § 8 (1887) (codified
as amended at 25 U.S.C.A, § 339 [West 2021]).

5

12

nations of their sovereignty. Perkins, 970 F.3d at
154. See Lone Wolf v. Hitchcock, 187 U.S. 553 (1903).
As the Second Circuit acknowledged, Congress has
passed neither a tax statute specifically abrogating
the provisions of Indian treaties nor a tax statute of
general application that has the effect of abrogating
Indian treaties with the Six Nations. Perkins, 970
F.3d at 154, quoting Lazore, 11 F.3d at 1183.
Before ascertaining treaty rights possessed by
the Senecas today, the Court must examine what
rights they possessed at the time of these treaties,
and from there, whether Congress has subsequently
abrogated these treaty rights by statute. McGirt,
140 S. Ct. at 2468. Understanding the meaning of
the words “nor disturb . . . the free use and
enjoyment” requires a broader examination of the
history of the Canandaigua Treaty than offered by
the Second Circuit in its opinion. Perkins, 970 F.3d
at 156-158.
The history between, and the relationship of,
the United States and the Six Nations, show each
regarded the other as independent sovereign nations,
bargaining for peace without sacrificing their
independence or their inherent sovereignty, and
respecting not only the boundaries between their
nations but also the exclusive authority each would
continue to have over its lands and its people.
In 1942, Felix Cohen, concluded:
The United States entered … the
treaties of 1789 and 1794, with the
Iroquois
(Six
Nations)
Indians,

13

recognizing the Indians as distinct and
separate political communities capable
of managing their internal affairs as
they had always done.
1942 Handbook, supra, at 419. The Six Nations “are
anomalies” and “are the only ones of like character in
the United States.” Thomas Donaldson, Extra Census
Bulletin. Indians. The Six Nations of New York 3
(U.S. Census Printing Office, Cornell University
Press 1995) (1892). They successfully defended their
ancestral lands and homes against Indian and
European invaders. Id. at 19. At the beginning of
the American republic, they were viewed as “too
strong to be ruthlessly forced out of their
surroundings.” Id. Like the British, the United
States recognized each Haudenosaunee Nation, “as
an independent body politic” with inherent
sovereignty over its aboriginal territories and its
people. Id. “Their history perpetuated their
independence while nearly all their contemporary
tribes diminished or disappeared.” Id. at 20.
The Canandaigua Treaty was the third,
federal treaty with the Haudenosaunee. 6
It is
undoubtedly the most significant historical treaty in
U.S. history.
It is not only a treaty between
independent sovereign nations but also the turning
point for a cash-strapped, struggling new nation to
The Six Nations have been called the Iroquois Confederacy, or
the Haudenosaunee Confederacy, the name preferred by
member nations. Felix S. Cohen, Handbook of Federal Indian
Law 416-417 n.6 (1942 ed.) The term “Haudenosaunee” means,
collectively and individually, the nations or citizens, aligned
and united with the Confederacy.
6

14

expand its territory and to pay its public debts by
selling land to white settlers in the ever-expanding
western frontier. Jack Campisi & William A. Starna,
On the Road to Canandaigua: The Treaty of 1794, 19
Am. Indian Q. 467 (1995). By diminishing its history
and its importance, the Second Circuit failed to
understand its meaning.
In 1821, the Attorney General of the United
States officially pronounced, with regards to the Six
Nations, that:
We
treat
them
as
separate
sovereignties; and while an Indian
nation continues to exist within its
acknowledged limits, we have no more
right to enter upon their territory,
without their consent, than we have to
enter upon the territory of a foreign
prince. . . . We have acknowledged by
treaty that these lands are theirs; and
by the same treaty have bound
ourselves not to disturb them in the free
use and enjoyment of these lands.”
The Seneca Lands, 1 U.S. Op. Atty. Gen. 465, 466-67
(Apr. 26, 1821).
This history of the Canandaigua Treaty begins
with President Washington commissioning Colonel
Timothy Pickering to meet with the Six Nations to
remove “from their minds all causes of complaint”
and to secure “a firm and permanent friendship with
them.” Canandaigua Treaty, supra, 7 Stat. at 44; 19
Am. Indian Q. at 479.

15

In the two prior treaties, the United States
claimed the Haudenosaunee ceded most of the
Seneca’s aboriginal territory. 19 Am. Indian Q. at
469-70. See Treaty with the Six Nations (“Fort
Stanwix Treaty”), Oct. 22, 1784, 7 Stat. 15; Treaty
with the Six Nations (“Fort Harmar Treaty”), Jan. 9,
1789, 7 Stat. 33. These prior treaties did little to
foster trust or to form any alliances between the
people of the United States and the Haudenosaunee.
Id. at 477-78.
Pickering faced the undaunted task of gaining
the trust and respect of the Haudenosaunee in
general, and the Senecas in particular. He wrote,
“Indians have been so often deceived by white people
that the White Man is, among many of them, but
another name for Liar.” Id. at 474. Pickering
admitted to the chiefs in council at Canandaigua his
disapproval of the conduct displayed by the
commissioners at Fort Stanwix. 7 Id. at 481.
Pickering knew the Senecas were a threat by
virtue of being among the most powerful of the Six
Nations, the most aggrieved by previous treaties,
and therefore the most likely to be a military
impediment to any war with the Indian nations in
the Ohio Valley. Perkins, 970 F.3d at 157, citing 19
Am. Indian Q. at 486. He offered jurisdictional
boundaries between the United States and the Six
Nations, restoring the land taken from the Senecas,
in exchange for a promise of neutrality. 19 Am.
Pickering later expressed in writing his remorse for the
manner he negotiated the relinquishment of aboriginal Indian
lands over which United States had absolutely no claim. 19 A.
Indian Q. at 485.

7

16

Indian Q. at 481. Pickering “had no intention of
pressing” for more concessions. Id.
During the five years of negotiations, the Six
Nations refused to accept any language promising
neutrality that would limit their sovereign rights to
form alliances with other Indian or foreign nations.
Id. at 474-75, 478. They also refused to make any
acknowledgement that they ceded the lands under
the jurisdiction of the Senecas to the United States
in the Fort Stanwix Treaty. Id. at 478, 483. Instead,
the Haudenosaunee only agreed “they [would] never
claim any other lands within the boundaries of the
United States, nor ever disturb the people of the
United States in the free use and enjoyment” of such
lands. Canandaigua Treaty, supra, art. IV, 7 Stat.
45. Pickering and the United States were satisfied
these concessions were an acceptable bargain to
accomplish the “great object” of the treaty. 19 Am.
Indian Q. at 473, 479, 484.
In the end, the
Canandaigua Treaty “was, without a doubt, a treaty
between sovereigns.” Id. at 487.
2. Any ambiguities with the language
used in the Canandaigua Treaty must
be resolved in favor of the Senecas.
The Second Circuit had the “responsibility to
see that the terms of the treaty are carried out, so far
as possible, in accordance with the meaning they
were understood to have by the tribal representatives at the council.” Cougar Den, 139 S. Ct. at 1012
citing Tulee v. Washington, 315 U.S. 681, 684 (1942).
Instead, it turned a blind eye on the mutual promises

17

made by the United States and the Haudenosaunee.
McGirt, 140 S. Ct. at 2482.
Contrary to the Second Circuit’s one-sided
view, 970 F.3d at 158, the “great object” was not only
to address the complaints involving the jurisdiction
over certain aboriginal lands of the Senecas but also
to secure a promise from the Senecas and the
Haudenosaunee not to disturb the white settlers
claiming land in the Ohio Valley. 19 Am. Indian Q.
at 479, 484. 8 The treaty made clear these settlers
and these lands were under the sovereign protection
of the United States. Canandaigua Treaty, supra,
art. IV, 7 Stat. 45. In the same vein, the United
States agreed not to disturb the “Indian friends
residing . . . and united with” the Haudenosaunee.
Id., art. III, 7 Stat. 45. Articles III and IV set forth
parallel promises of non-interference.
From the Haudenosaunee perspective, the
“firm and permanent friendship” established under
the Canandaigua Treaty existed because the parties
agreed to recognize their separate sovereignties
while “coexisting peacefully, neither imposing their
laws or religion on the other.” Perkins¸ 970 F.3d at
158, citing Lazore, 11 F.3d at 1186. By establishing
At the conclusion of treaty negotiations, Pickering wrote to
Secretary of War Henry Knox, “You will see the great object is
obtained; an express renunciation which takes in all the lands
in Pennsylvania, including the Triangle which comprehends
Presque Isle; and a pointed declaration that they will never
disturb the people of the U. States in the free use and
enjoyment of them or any other lands not contained within the
present described boundaries of the lands of the Six Nations.”
19 Am. Indian Q. at 484.

8

18

these jurisdictional boundaries, the parties agreed
not to interfere with the others’ exclusive authority
over its lands and its people. Canandaigua Treaty,
supra, art. III & IV, 7 Stat. 45. The United States
and the Haudenosaunee further agreed to pursue
“prudent measures” to preserve their peace and
friendship until Congress makes “other equitable
provisions for the purpose.” Id., 7 Stat. 46. Even the
Second Circuit had to acknowledge Congress has
made no laws abrogating any treaty with the
Senecas. Perkins, 970 F.3d at 154.
In this case, Alice Perkins does not claim an
exemption due to her status as an enrolled Seneca.
She claims the income for which she earned as a sole
proprietor is not subject to federal income tax for
four reasons. First, Seneca law gives her the right to
extract sand and gravel on the Seneca’s sovereign
territory. Second, as an enrolled Seneca living on the
Allegany Territory, she would be considered an
“Indian friend” residing and united with the Seneca
Nation. Third, under Seneca law, she had a superior
possessory right to freely use the property-at-issue.
Finally, taxing income earned from mining sand and
gravel places an impermissible burden on her “free
use and enjoyment” of such lands. See Cougar Den,
139 S. Ct. at 1011, 1013 (The relevant question is
whether the tax “acts upon the Indians as a charge
for exercising the very right their ancestors intended
to reserve.”) citing Tulee, 315 U.S. at 685.
The Second Circuit, however, ruled the treaty
promise does not extend to Alice as an enrolled
member. Perkins, 970 F.3d at 162. The circuit court
opined the “better understanding” of the phrase

19

“Indian friends” were “the affiliated nations making
up the Six Nations …” and not enrolled members
owing allegiance to, or united with, the Senecas. Id.
Such an interpretation is inconsistent with the text
and the liberal rules of construction applicable to
ambiguous provisions within a treaty.
The text reads, “nor disturb the Seneka
nation, nor any of the Six Nations, or of their Indian
friends residing thereon and united with them, in the
free use and enjoyment thereof …” Canandaigua
Treaty, supra, art. III, 7 Stat. 45. The circuit court’s
narrow interpretation ignores the placement of the
phrase “any of the Six Nations,” before the phrase
“their Indian friends residing,” and thereby
rendering the meaning of “Indian friends” obscure
under this narrow construction.
The Second Circuit next attempted to
differentiate the words used in Articles III (relating
to the Senecas) and Article IV (relating to the people
of the United States) with the words in Article VII.
Article VII speaks to “individuals on either side,”
whose “misconduct” disrupts the “firm and
permanent friendship,” while Articles III and IV
speak to the “Indian friends” and the white settlers
who benefit from the “free use and enjoyment” of the
respective lands of each sovereign. The free use and
enjoyment of aboriginal lands benefit only those
“Indian
friends,”
owing
allegiance
to
the
Haudenosaunee, and who reside on the territory. 9

In 1890, the U.S. Census acknowledged enrolled Senecas had
to renounce their allegiance to the Seneca Nation to be

9

20

Article VII targets a larger class of individuals by
using the phrase, “Lest the firm and permanent
friendship now established should be interrupted by
the misconduct of individuals …” Since the
misconduct of such individuals would be committed
on another sovereign’s land, it would be contrary to
the meaning of the phrase “Indian friends residing
thereon and united with” the Haudenosaunee.
Finally, a promise not to disturb a sovereign
nation in the free use and enjoyment its sovereign
lands is empty promise unless the promise includes
the society of people forming the social compact with
such a nation. By giving a narrow meaning to the
phrase “Indian friends,” the Second Circuit breaches
the cardinal rule that ambiguous terms must be
construed in favor of the Indians. See McGirt, 140 S.
Ct. at 2470 (“treaty rights are to be construed in
favor, not against, tribal rights”). From the Senecas
perspective, the Haudenosaunee and the United
States, while “coexisting peacefully, neither imposing
their laws or religion on the other” would form “a
firm and permanent friendship” if each honored their
treaty promises. Perkins¸ 970 F.3d at 158, citing
Lazore, 11 F.3d at 1186. Now, this Court should
“hold the government to its word.” McGirt, 140 S.
Ct. at 2459.

considered a U.S. citizen. For this reason, they were considered
“Indians not taxed.” Census Bulletin at 3.

21

3. The original meaning of the 1842
Treaty is clear from its text and
extratextual sources should not be
used to cloud the meaning of its text.
It has been well documented in history,
individuals working for, or authorized by, state and
federal governments have encroached and disturbed
the free use and enjoyment of the treaty-protected
lands since the ratification of the Canandaigua
Treaty. Nonetheless, Congress has taken action to
remedy such treaty violations in accordance with
Article VII of the Canandaigua Treaty.
When the State of New York sought to assess,
tax, and foreclose upon Seneca lands in 1841, the
United States did not allow the mutual promises of
non-interference contained in the Canandaigua
Treaty to be breached without a remedy. Instead, the
United States entered a separate treaty with the
Senecas, promising:
The parties to this compact mutually
agree to solicit the influence of the
Government of the United States 10 to
protect such of the lands of the Seneca
Indians, within the State of New York,
as may from time to time remain in
their possession from all taxes, and
assessment for roads, highways or any
other purpose, until such lands shall
“The parties to the compact mutually agree to solicit the
influence of the Government of the United States” means the
parties will endure to have the compact (i.e. treaty) ratified by
Congress.
10

22

be sold and conveyed by the said
Indians, and the possession thereof
shall have been relinquished by them.
(Emphasis added).
1842 Treaty, supra, art. 9th, 7 Stat. at 590.
In McGirt, Justice Gorsuch, joined by Justices
Breyer, Sotomayer, Kagan and the late Justice
Ginsburg, reaffirmed a point of law, which had been
overlooked by many federal circuit courts, including
the Second Circuit:
There is no need to consult extratextual
sources when the meaning of a statute's
terms is clear. Nor may extratextual
sources overcome those terms. The only
role such materials can properly play is
to help “clear up ... not create”
ambiguity about a statute's original
meaning.
140 S. Ct. at 2469. In his concurring opinion in
Cougar Den, Justice Gorsuch applied this point of
law to treaties.
Our job here is a modest one. We are
charged with adopting the interpretation most consistent with the treaty's
original meaning. (Citation omitted).
When we're dealing with a tribal treaty,
too, we must “give effect to the terms as
the Indians themselves would have
understood them.” Minnesota v. Mille
Lacs Band of Chippewa Indians, 526
U.S. 172, 196 (1999). After all, the

23

United States drew up this contract,
and we normally construe any ambiguities against the drafter who enjoys the
power of the pen.
139 S. Ct. at 1016.
While acknowledging “an explicit textual
exemption from taxation” within the text of the 1842
Treaty, the Second Circuit held, “the best approach is
to first examine each treaty at issue within its
historical context.”
970 F.3d at 156. Its “best
approach” contradicts the holdings in McGirt, 140 S.
Ct. at 2469 (There is no need to consult extratextual
sources when the meaning of a … term is clear.”).
The Perkinses argued the Canandaigua Treaty and
the 1842 Treaty must be read in pari materia.
Perkins, 970 F.3d at 162. The Second Circuit
disagreed, despite language within the 1842 Treaty
restoring the Senecas living on the Cattaraugus and
Allegany territories to the same title and rights they
had prior to 1838. Id. Consequently, the circuit court
examined only the history after 1838, leading to the
1842 Treaty, instead of examining the treaty’s plain
text. Id. at 164-67.
Prior to the 1842 Treaty, the removal of the
Senecas from their aboriginal lands had been
contemplated by Congress. 11 The first article of the
1842 Treaty confirms the Seneca Nation, and its
people would “continue in the occupation and
enjoyment of the whole of the said two several tracts
of land, called the Cattaraugus Reservation, and the
As this Court found in McGirt, 140 S. Ct. at 2465, “just as
wishes are not laws, future plans aren’t either.”
11

24

Allegany Reservation with the same right and title
in all things, as they had and possessed therein
immediately before” the 1838 conveyance. 1842
Treaty, supra, 7 Stat. 587; see, also, The New York
Indians, 72 U.S. (5 Wall.) 716, 767 (1866). In The
New York Indians case, this Court held:
Until the Indians have sold their lands
and removed from them in pursuance of
the treaty stipulations, they are to be
regarded as still in their ancient
possession, and … under their original
rights, … entitled to the undisturbed
enjoyment of them. This was the effect
of the decision in the case of Fellows v.
Blacksmith.
Id. The Second Circuit, therefore, erred by refusing
to read the Canandaigua Treaty and the 1842 Treaty
in pari materia.
In a footnote, the Second Circuit stated it had
no need to address whether the 1842 Treaty tax
exemption was “limited to state – as opposed to
federal – taxation.” 970 F.3d at 166 n.18. The court
passed on this question, after finding the income
earned by Alice Perkins did not derive from the land,
but from a permit given to her by the Seneca Nation.
Id. at 166. It also held the 1842 Treaty bestowed no
rights on enrolled members. Id. at 164. This Court
should
reject
these
findings
because
the
Canandaigua Treaty and 1842 Treaty intended the
Senecas to peacefully co-exist with the people of the
United States without either being subject to the
other’s laws.

25

B. Congress Has Not Enacted Any Law
Allowing Respondent Commissioner to
Assess or Collect Income Tax from
Enrolled Senecas, Living and Working
on the Seneca Nation Territory.
Prior to these treaties, Congress had not been
given authority under the Constitution to impose a
federal tax on land or income. Pollock v. Farmers’
Loan & Trust Co., 158 U.S. 601 (1895). Congress
only had the constitutional power to impose and
collect a “direct Tax . . . apportioned among the
several States.” Members of the Seneca Nation were
classified as “Indians not taxed” and not counted for
purposes of this apportionment. U.S. Const. art. I,
§2, cl. 3. Petitioner Alice Perkins recognizes Article
I, §2, cl. 3 does not provide her with a constitutional
claim for federal income tax exemption. However, it
does provide a historical perspective from which the
Court may conclude the United States never
intended to tax Indians living on treaty-protected
lands.
The Second Circuit and the Commissioner
cannot cite a single case that has held an enrolled
Seneca is subject to a tax for income derived from
farming, harvesting, mining, or otherwise working
these treaty-protected lands. Although at least two
circuit courts have suggested in dicta that income
derived directly from the land might be exempt from
taxation under these treaties, the Second Circuit
rejects such dicta and cites cases where an
exemption was sought for income earned in ways
that do not relate to the land itself. Perkins, 970 F.3d
at 158-60 (examining Lazore, 11 F.3d 1180; Hoptowit

26

v. Comm'r, 709 F.2d 564 [9th Cir. 1983]). Yet even
the State of New York has never attempted to assess
or collect an income tax from an enrolled Seneca who
lives and earns a living on the Seneca Nation
territory based on this Court’s holding in
McClanahan v. State Tax Commn. of Arizona, 411
U.S. 164, 181 (1973).
The Canandaigua Treaty was ratified by
Congress more than 236 years ago. Now, for the first
time in 236 years, the Commissioner of the Internal
Revenue claims the authority to assess and collect an
income tax from an enrolled Seneca whose income is
derived from the treaty-protected lands of the Seneca
Nation.
“[E]nough time and patience [cannot] nullify
the promises made in the name of the United States.
That would be at odds with the Constitution, which
. . . directs that federal treaties and statutes are the
‘supreme Law of the Land.’” McGirt, 140 S. Ct. at
2462, citing U.S. Const, art. VI, cl. 2. In these
federal treaties, the United States promised the
Haudenosaunee the right to continue to govern
themselves. For this reason, this Court has required
“a clear expression of the intention of Congress”
before the state or federal government may
[regulate] Indians for conduct on their lands.” Id. at
2477; Herrera, 139 S. Ct. at 1698 (quoting United
States v. Dion, 476 U.S. 734, 739–40 (1986) and
citing Mille Lacs Band, 526 U.S. at 202-203. (The
Court will require “ ‘clear evidence that Congress
actually considered the conflict between its intended
action on the one hand and Indian treaty rights on

27

the other, and chose to resolve that conflict by abrogating the treaty.’ ”)
In 1877, Congress abolished the powers of the
President and the Senate to form treaties with
Indian nations.
25 U.S.C.A. § 71 (West 2021).
Nevertheless, Congress affirmed, “no obligation of
any treaty lawfully made and ratified with such
Indian nation or tribe prior to March 3, 1871, shall
be hereby invalidated or impaired.” Id. Ten years
later, Congress enacted the General Allotment Act
and explicitly excluded the lands of the Seneca
Nations, preserving and not disturbing the
protections already given the Senecas in federal
treaties.
In 1913, the Sixteenth Amendment gave
Congress the “power to lay and collect taxes on
incomes, from whatever source derived, without
apportionment among the several States, and
without regard to any census or enumeration.” U.S.
Const. XVI amend. Congress used this authority to
tax individuals who were considered citizens of the
United States. Members of the Seneca Nation were
not even considered citizens of the United States or
subject to its jurisdiction until 1924. 12 Consequently,
In 1924, Representative Homer Snyder of New York
introduced a bill, signed into law by President Calvin Coolidge,
declaring “all non-citizen Indians born within the territorial
limits of the United States . . . to be citizens of the United
States . . .” Indian Citizenship Act of 1924, Pub. L. No. 68-175,
43 Stat. 253. The Fourteenth Amendment already defined
citizens any person born in the United States, but only if
“subject to the jurisdiction thereof.” This latter provision was
thought to exclude Haudenosaunee as “citizens of the United
12

28

neither the Senecas nor the United States
contemplated a federal tax on land, or income
derived from land, on the Seneca Nation territories.
In 1925 and 1926, the Attorney General of the
United States issued two opinions that found:
•

“Because revenue laws impose burdens upon
the public and restrict the use and enjoyment
of property, they are not to be extended
beyond the clear import of the words used.
Congress is bound to express its intention to
tax in clear and unambiguous language.”
Income Tax-Restricted Lands of Quapaw
Indians., 34 U.S. Op. Atty. Gen. 439, 444
(1925)

•

“To tax them is so inconsistent with the
purpose and object of the Government in its
dealing with these Indians, and the relation
that it maintains toward them and their
property, that is cannot be assumed from the
general provisions of the internal revenue
laws, although broad in compass, that such
was the intention of Congress.” Income TaxTom Pavatea, Hopi Indian, 35 U.S. Op. Atty.
Gen. 107, 109 (1926)

Starting with the Internal Revenue Code of 1954,
Congress made clear treaties with tax exemption
provisions should prevail over the general provisions
of the Code. David Sachs Is the 19th Century
States and of the State wherein they reside.”
Wilkins, 112 U.S. 94, 100 (1884).

See Elk v.

29

Doctrine of Treaty Override Good Law for Modern
Day Tax Treaties?, 47 Tax Law. 867, 870 (1994),
Thus, Congress has directed the Commissioner to
give “due regard” to treaty obligations of the United
States.
26 U.S.C.A. § 894(a)(1). The Internal
Revenue Code further provides, “No provision of this
title (as in effect without regard to any amendment
thereto enacted after August 16, 1954) shall apply in
any case where its application would be contrary to
any treaty obligation of the United States in effect on
August 16, 1954.” 28 U.S.C.A. § 7852(d)(2)(West
2021). Since the treaties at issue in this case were in
effect on August 16, 1954, these treaties continue to
protect the land within the treaty-defined boundaries
and any income derived from such land. The
Commissioner’s relief does not rest within the courts,
but with Congress.
II
BY GRANTING CERTIORARI, THE COURT
WILL ENSURE THESE TREATIES ARE
HONORED AND THAT THE RULE OF LAW
PREVAILS, NOT THE RULE OF THE STRONG
Contrary to the Second Circuit’s view, this
case does not turn on whether Petitioner Alice
Perkins “owns” or has a “possessory ownership
interest in land.” At the time of these treaties, the
Senecas and Haudenosaunee did not recognize the
Anglo-European concept of “ownership.” In Defense
of Property, 118 Yale L. J. 1022, 1066 (April 2009).
Instead of ownership, the Haudenosaunee and the
Senecas embraced the notion of stewardship. Id.

30

Therefore, it would be antithetical to interpret any
rights under these treaties based on ownership.
Under the Canandaigua Treaty and the 1842
Treaty, the Senecas remain in their ancient possession of aboriginal lands entitling them to the
undisturbed enjoyment of such lands and creating
“indefeasible title” to such lands “that may extend
from generation to generation” until the Senecas
surrender such lands. The New York Indians, 72
U.S. (5 Wall.) at 771. Although enrolled Senecas do
not “own” land within the territory, they do have the
right to possess land, either by a quitclaim deed
allotting land or by a lease assigning land. More
importantly, based on these treaties, the Seneca
Nation has the exclusive sovereign right to make
laws governing its lands and the use of such lands.
Congress has never abrogated the self-governance
rights of the Seneca Nation.
Petitioner Alice Perkins, Alton Jimerson and
his family were allotted lands based on the customs,
laws, and traditions of the Seneca Nation. When
Petitioner Alice Perkins ask her elderly neighbor and
countryman, Alton Jimerson, permission to use his
land, he willingly and freely gave his permission.
From Mr. Jimerson’s perspective, his land had
little beneficial value to him or his family since the
land is in a flood zone. After the construction of the
Kinzua Dam, he and his family could not build
homes, farm, or otherwise work the land. But
Petitioner Alice Perkins could.
With Mr. Jimerson’s permission, Petitioner
Alice Perkins sought and received from the Seneca

31

Nation the exclusive rights to mine this land. She
later acquired the adjacent property so she could
access Mr. Jimerson’s allotted land and was given
permission by the Seneca Nation to add her land to
her permit.
Alton Jimerson did not have the financial
means to start a mining business but reaped the
benefit through royalties paid in exchange for giving
exclusive rights to Petitioner Alice Perkins to use his
allotted land. In turn, the Seneca Nation who
granted Petitioner Alice Perkins exclusive rights to
extract the sand and gravel from this land, received
royalties in accordance with its now suspended, law.
The Seneca Nation, the Jimerson and Perkins
families have been subject to the will of the strong.
The construction of the Kinzua Dam demonstrates
that fact. 13 Congress sanctioned the breach of these
treaties, by enacting laws and approving funds for
the Kinzua Dam. Yet, since the construction of the
Kinzua Dam, Congress has done nothing to further
abrogate these treaties, promising the free use and
enjoyment of these lands, or the promise not to tax
such lands for any purpose.
Now, once again, Petitioner Alice Perkins and
other Senecas who earn income from farming,
timbering, harvesting, or otherwise working the
For a history relating to the construction of the Kinzua Dam,
please read Maria Diaz-Gonzalez, The Complicated History of
the Kinzua Dam and How It Changed Life for the Seneca
People, Feb. 12, 2020, https://www.alleghenyfront.org/thecomplicated-history-of-the-kinzua-dam-and-how-it-changed-lifefor-the-seneca-people/.
13

32

treaty-protected land of the Seneca Nation, must
stand toe-to-toe with one of the most powerful federal
agencies, the Internal Revenue Service. While the
Second Circuit concluded these lands would never be
subject to federal tax liens, it completely ignored the
criminal consequences associated with the failure to
pay taxes. No Seneca should be forced to pay an
unlawful tax or otherwise be threaten with imprisonment.
In McGirt, this Court held:
If Congress wishes to withdraw its
promises, it must say so. Unlawful acts,
performed long enough and with
sufficient vigor, are never enough to
amend the law. To hold otherwise would
be to elevate the most brazen and
longstanding injustices over the law,
both rewarding wrong and failing those
in the right.
140 S. Ct. 2482; see also Herrera, 139 S. Ct. at 1698
(“If Congress seeks to abrogate treaty rights, ‘it must
clearly express its intent to do so,’” citing Mille Lacs,
526 U.S. at 202). Generally, these “brazen and
longstanding injustices over the law” are not subject
to review by this Court simply because individuals
like Alice Perkins or Alton Jimerson lack the means
or the courage to speak truth to power. Petitioner
Alice Perkins is now on the steps of this mighty
Court asking to “hold the government to its words,”
McGirt¸ 140 S. Ct. at 2459, and not to “cast a blind
eye,” id. at 2482, allowing the “rule of the strong, not
the rule of law” to prevail. Id. at 2474.

33

CONCLUSION
The Second Circuit has decided an important
question of federal law that has not been, but should
be, settled by this Court, in a way that is consistent
with the Court’s precedents. This Court must honor
the promises made in treaties to the Seneca Nation
and its people, as Congress has directed. For these
reasons, the Court should grant certiorari and hear
the merits of this case.
Respectfully submitted,
MARGARET A. MURPHY
Counsel of Record for Petitioners
5354 Briercliff Drive
Hamburg, NY 14075
mam@mamurphypc.com
(716) 867-1536

Of counsel:
GARY D. BOREK
99 Victoria Boulevard
Cheektowaga, NY 14225
(716) 839-4321

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS, SECOND CIRCUIT,
DATED AUGUST 12, 2020
UNITED STATES COURT OF APPEALS,
SECOND CIRCUIT.
ALICE PERKINS, FREDRICK PERKINS,
Petitioners-Appellants,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent-Appellee.
Docket No. 19-2481
August Term 2019
Argued: May 21, 2020
Decided: August 12, 2020
Opinion
Wesley, Circuit Judge:
Alice Perkins is an enrolled member of the Seneca
Nation of Indians (the “Seneca Nation” or the “Nation”)
who resides on the Seneca Nation’s Allegany Territories
with her husband, Fredrick.1 Together they operate A & F
1. As the tax court noted below, “[n]omenclature is fraught in
this field.” J.A. 143 n.1. The official name of the Seneca Nation in

2a
Appendix A
Trucking, which was involved in the mining and sale of
gravel from land located within the Allegany Territories.
The Perkinses filed their income taxes for the 2008 and
2009 years well after the filing due dates, claiming that
the income earned from the sale of gravel mined on Seneca
land was exempt from federal income tax by operation of
a statute and two treaties between the United States and
the Seneca Nation. After an audit, the Internal Revenue
Service (“IRS”) disagreed that the revenue generated
from A & F Trucking’s gravel sales was exempt from
federal taxes and issued a notice of deficiency to the
Perkinses assessing penalties for their late filings.
In November of 2014, the Perkinses filed this action in
tax court seeking redetermination of their tax liabilities.
They initially argued that a federal statute, the General
Allotment Act of 1887, 24 Stat. 388 (codified at 25 U.S.C.
§ 334 et seq.), created an exemption for income derived
English is the “Seneca Nation of Indians.” See The Seneca Nation
of Indians, Culture, https://sni.org/culture/ (last visited August 11,
2020) (hereinafter “Culture”). Much of the law and historical sources
involving this area of the law refer to the indigenous peoples who
reside within the United States as “American Indians.” The United
States Department of the Interior’s Bureau of Indian Affairs likewise
uses the term “American Indians” to refer to members of federally
recognized tribes, villages, or nations. In an effort to avoid confusion,
and to ensure continuity with prior caselaw, we will use this term
to refer generally to the indigenous peoples of the United States, or
to refer to a body of law generally. Where possible, we will refer to
the specific nation at issue in a prior case or in the historical record
by its name. We will refer to the Seneca Nation of Indians, when
referring to the governmental entity, as “the Seneca Nation” or the
“Nation,” as appropriate.

3a
Appendix A
from Seneca land. After abandoning that argument,
they then claimed that the 1794 Treaty of Canandaigua,
7 Stat. 44 (Nov. 11, 1794), and the 1842 Treaty with the
Seneca, 7 Stat. 586 (May 20, 1842), created an exemption
from income taxes for income derived from land within
the Seneca Nation. The tax court disagreed, finding
that neither treaty supported an exemption from federal
income taxation.
On appeal, the Perkinses argue that the tax court
failed to liberally construe the treaties and that doing so
would have shown the treaties supported an exemption to
federal income taxes. See, e.g., Pet’rs’ Br. 13–25, 29–36.
They also urge us to endorse language in several cases
from other Courts of Appeals suggesting that income
derived from Seneca land may be exempt under the Treaty
of Canandaigua and the Treaty with the Seneca—which
the Perkinses argue must be read together. See id. at
18–29.
We agree with the tax court. To the extent the
language of either treaty could be construed to offer an
exemption from taxes, those exemptions are constrained
by the historical contexts under which they were drafted
and therefore neither exemption extends to the Perkinses’
gravel mining revenue. The text and context of the
Treaty of Canandaigua demonstrates that it creates no
tax exemption applicable to the Perkinses. Dicta in other
cases suggesting the opposite are incorrect; they would
require the erroneous extension of a Supreme Court case
that is inapposite where the land from which the income
is derived is not held in trust by the United States for an

4a
Appendix A
American Indian taxpayer. While the 1842 Treaty with
the Seneca contains an explicit exemption for taxes on
Seneca land, we reject that a tax exemption applying to
Seneca land must necessarily extend to income derived
by individual members from Seneca land.
Because neither treaty exempts the Perkinses’ gravelmining income from federal income taxation, we affirm the
tax court’s decision and remand for further proceedings
consistent with this opinion.
BACKGROUND
I.

Factual Background

The Seneca Nation was the largest of the Six Nations
comprising the Iroquois Confederacy, otherwise known as
the Haudenosaunee. See generally Lazore v. Comm’r, 11
F.3d 1180, 1182 (3d Cir. 1993) (discussing uncontradicted
trial evidence); see also Culture, supra n.1. Historically,
the Seneca Nation occupied territory throughout Central
and Western New York. See Culture, supra n.1. The Seneca
Nation continues to own and occupy land in Western New
York, including an area known as the Allegany Indian
Territories (the “Allegany Territories”) near the border
of Pennsylvania. See, e.g., Seneca Nation of Indians,
Territories, https://sni.org/government/territories/ (last
visited August 11, 2020).

5a
Appendix A
A. The Seneca Nation’s Sand & Gravel
Permitting Laws
The Seneca Nation retains ownership of land on its
territories, and “allots” to individual members possessory
interests in the use of a plot of the Nation’s land. J.A. 98
§ 102(C). Any land that is unallotted to individual members
is retained by the Nation. J.A. 99 § 102(F). The Nation
defines any “Nation Land” to mean “any lands” owned in
fee simple by the Nation and subject to federal restrictions
upon alienation, including the Allegany Territories. J.A.
100 § 102(R).
The Seneca Nation has specific laws governing the
extraction and mining of natural resources on its land.
“[A]ll minerals, including ... gravel located within any
Nation lands shall be and remain the sole and exclusive
property of the Nation.” J.A. 102 § 301. To lawfully extract
gravel from land belonging to the Seneca Nation, the
Nation must issue a permit. J.A. 102 § 302(A). A permit
requires approval by the Nation’s government and the
consent of the “owner of record,” who is the “Nation
member holding an allotment pursuant to Nation law,
custom, tradition or usage.” See J.A. 100 § 102(T), J.A.
102 § 302.
Individual members of the Seneca Nation do not own
land on its territories in fee simple. Instead, the Nation
provides to individual members lifetime possessory
interests in land. See Statement of Undisputed Facts,
Perkins v. United States, No. 16-cv-00495, Dkt. 72-1 at

6a
Appendix A
¶ 8 (W.D.N.Y). 2 The Nation retains ownership over the
subsurface rights to all land in its territories. See id. at ¶ 9.
B. The Perkinses & A & F Trucking
Petitioner Alice Perkins is an enrolled member of the
Seneca Nation and, with her husband Fredrick, operates
A & F Trucking (“A & F”). Alice and Fredrick (together,
the “Perkinses”) live on the Allegany Territories. In
2008, the Seneca Nation issued Alice and A & F a permit
to mine gravel from certain land located in the Allegany
Territories. In exchange for the right to mine gravel
from land belonging to the Seneca Nation, A & F paid the
Nation royalties on the proceeds earned from selling that
gravel. A & F’s permit was valid through June of 2009,
when the Nation imposed a moratorium on mining and
withdrew A & F’s permit. A & F continued selling gravel
that had already been mined through 2011.
Alton Jimerson, a member of the Seneca Nation, had
a lifetime possessory interest over the 116-Acre plot of
2. As we note below, the Perkinses filed an action in the Western
District of New York concerning their tax liabilities for the 2010 tax
year. See Perkins v. United States, No. 16-cv-00495 (W.D.N.Y. June
16, 2016). We take judicial notice of certain of the parties’ filings in
that action because those filings concern the same parties and subject
matter before this Court, and neither party disputes the contents of
those filings. Thus, we may consider those documents for the truth of
the matters asserted therein. See Young v. Selsky, 41 F.3d 47, 50–51
(2d Cir. 1994) (taking judicial notice of documents and testimony
filed in another action for the truth of the matters asserted therein
where no party contested the accuracy of the statements and both
parties relied on the information).

7a
Appendix A
land from which A & F mined gravel. See Statement of
Undisputed Facts, Perkins v. United States, No. 16-cv00495, Dkt. 72-1 at ¶¶ 8–9 (W.D.N.Y June 15, 2018). Alice
Perkins and A & F obtained permission from Jimerson,
pending approval by the Seneca Nation, to mine gravel
from the 116-Acre plot. The Perkinses mined gravel from
Jimerson’s land until A & F’s permit was withdrawn by
the Seneca Nation in 2009.
C. The Perkinses’ Tax Returns
The Perkinses filed their joint individual income tax
returns for the 2008 and 2009 years in October of 2011,
well after the filing due dates. The Perkinses attached a
“detail sheet” to their returns and claimed that the income
generated from A & F’s sale of gravel during 2008 and 2009
was exempt from federal income tax under the General
Allotment Act of 1887, 24 Stat. 388 (Feb. 8, 1887) (codified
at 25 U.S.C. § 334 et seq.); see also 25 U.S.C. § 348. The
Commissioner of Internal Revenue (the “Commissioner”)
issued a notice of deficiency to the Perkinses for the 2008–
2010 tax years, and adjusted A & F’s business income to
include revenue generated from the sale of gravel mined
from the Allegany Territories. The Commissioner also
sought to impose penalties upon the Perkinses for their
late and inaccurate filings under I.R.C. §§ 6651(a)(1) and
6662(a).
The Perkinses claimed the same exemption in their
2010 tax return. They paid the tax, interest, and penalties
demanded by the IRS; and then, in 2016, filed a claim in
the United States District Court for the Western District

8a
Appendix A
of New York seeking a refund. The district court in that
action denied the Commissioner’s motion to dismiss and
the parties’ cross-motions for summary judgment, and
the case is currently proceeding towards trial. 3
II. Procedural History
In response to the Commissioner ’s notice of
deficiency, the Perkinses filed a tax court petition seeking
redetermination of their tax liabilities for the 2008 and
2009 tax years. Initially, they argued that the revenues
from A & F’s sale of gravel were not subject to federal
income taxation because that income was “earned from
the depletion” of American Indian land held in trust by the
United States under the Indian General Allotment Act of
1887. See J.A. 84–85 (citing Squire v. Capoeman, 351 U.S.
1, 76 S.Ct. 611, 100 L.Ed. 883 (1956)). The Perkinses later
abandoned this argument for the reasons discussed below,
and instead claimed that two treaties between the United
States and the Seneca Nation created an exemption from
federal income taxation for income derived from Seneca
land. They argued that the 1794 Treaty of Canandaigua,
7 Stat. 44 (Nov. 11, 1794), and the 1842 Treaty with the
Seneca, 7 Stat. 586 (May 20, 1842), exempted “income
derived directly from” land belonging to the Seneca Nation
from federal income taxation, which would include their
gravel sales. J.A. 116–17; see J.A. 104.
3. The district court’s decisions on the Commissioner’s motion
to dismiss, and on the parties’ cross-motions for summary judgment,
are not before this Court; we express no opinion on their reasoning
or result.

9a
Appendix A
The Commissioner moved for summary judgment.4
The tax court found that the Treaty of Canandaigua
did not exempt from taxation the income of individual
members of the Seneca Nation, and that the tax exemption
that appears on the face of the Treaty with the Seneca was
directed at taxes on real property and not income derived
from the sale of gravel. The tax court also determined
that the Perkinses were liable for late filing penalties
under I.R.C. § 6651(a)(1), but rejected the Commissioner’s
request for inaccurate filing penalties under I.R.C.
§ 6662. 5 The tax court then entered a decision and order
assessing penalties against the Perkinses for their late
filings. The Perkinses timely appealed.
DISCUSSION
I.

Jurisdiction & Standard of Review

This Court has jurisdiction to review decisions of the
tax court and does so “in the same manner and to the same
extent as decisions of the district courts in civil actions
tried without a jury.” I.R.C. § 7482(a)(1). Venue is proper
in the Second Circuit because the Perkinses reside in the
Allegany Territories, located in the Western District of
New York. See id. § 7482(b)(1)(A).

4. The Perkinses did not assert that any material issues of fact
precluded summary judgment.
5. A fter the tax court’s ruling, the Perkinses and the
Commissioner stipulated that the Perkinses were not liable for
accuracy-related penalties under I.R.C. § 6662(a).

10a
Appendix A
We review the tax court’s grant of the Commissioner’s
motion for summary judgment de novo. See Williams
v. Comm’r, 718 F.3d 89, 91 (2d Cir. 2013) (per curiam).
Because neither party raised as an issue before this Court
penalties or the amount of any applicable penalties, we
need only consider whether the Perkinses’ gravel-mining
income is subject to federal income taxation. The dispute
is a legal one: whether either of two treaties operates to
exempt the Perkinses’ gravel-mining income from federal
income taxation.
II. General Principles of The Internal Revenue
Code and the Interpretation of American
Indian Treaties
American Indian nations are “regarded as dependent
nations, and treaties with them have been looked upon not
as contracts, but as public laws which could be abrogated
at the will of the United States.” Choate v. Trapp, 224
U.S. 665, 671, 32 S.Ct. 565, 56 L.Ed. 941 (1912). Congress’s
“power to unilaterally abrogate provisions of treaties
with [American] Indians is firmly established.” Lazore v.
Comm’r, 11 F.3d 1180, 1183 (3d Cir. 1993). Furthermore, it
is “well settled by many decisions of [the Supreme] Court
that a general statute in terms applying to all persons
includes [American] Indians and their property interests.”
Fed. Power Comm’n v. Tuscarora Indian Nation, 362 U.S.
99, 116, 80 S.Ct. 543, 4 L.Ed.2d 584 (1960). The Internal
Revenue Code applies to every individual and taxes “all
income from whatever source derived.” See I.R.C. §§ 1,
61(a). Thus, absent a specific exemption, American Indians
are not, by virtue of their status, exempt from paying
federal income taxes. See Squire v. Capoeman, 351 U.S.

11a
Appendix A
1, 6, 76 S.Ct. 611, 100 L.Ed. 883 (1956); Choteau v. Burnet,
283 U.S. 691, 694–95, 51 S.Ct. 598, 75 L.Ed. 1353 (1931).
While the Tax Code generally applies to American
Indian citizens, “[i]n the area of taxation, Congress
has passed neither a statute specifically abrogating the
provisions of Indian treaties nor a statute of general
application that has the effect of abrogating Indian
treaties.” Lazore, 11 F.3d at 1183. Instead, the Internal
Revenue Code must be applied “with due regard to any
treaty obligation of the United States which applies to [the]
taxpayer.” I.R.C. § 894(a)(1). The question is therefore
whether another act of Congress or a specific treaty
creates an exemption applicable to the Perkinses’ gravelmining income. See, e.g., Squire, 351 U.S. at 6, 76 S.Ct. 611.
Initially the Perkinses argued that the General
Allotment Act of 1887, and a Supreme Court case
interpreting that act, Squire v. Capoeman, 351 U.S. 1,
6–8, 76 S.Ct. 611, 100 L.Ed. 883 (1956), exempted their
gravel-mining income from federal income taxation.
For the reasons we discuss below, the Perkinses wisely
abandoned that argument. Because they point to no other
act of Congress that could create an exemption covering
their gravel-mining income, the only question is whether
a treaty between the United States and the Seneca Nation
creates such an exemption.
A. Interpreting Treaties with American
Indian Nations
To determine whether an American Indian treaty
creates an exemption from federal income taxes we “look

12a
Appendix A
beyond the written words to the larger context that
frames the Treaty, including ‘the history of the treaty, the
negotiations, and the practical construction adopted by
the parties.’ ” Minnesota v. Mille Lacs Band of Chippewa
Indians, 526 U.S. 172, 196, 119 S.Ct. 1187, 143 L.Ed.2d
270 (1999) (quoting Choctaw Nation of Indians v. United
States, 318 U.S. 423, 432, 63 S.Ct. 672, 87 L.Ed. 877 (1943));
see also Seneca Nation of Indians v. New York, 382 F.3d
245, 259 (2d Cir. 2004).
“[W]e interpret Indian treaties to give effect to the
terms as the Indians themselves would have understood
them.” Mille Lacs Band of Chippewa Indians, 526 U.S.
at 196, 119 S.Ct. 1187 (citations omitted). In doing so,
this Court is bound to interpret treaties with American
Indians liberally, construing treaties in favor of the
American Indians. See Choctaw Nation of Indians, 318
U.S. at 431–32, 63 S.Ct. 672. Thus, ambiguous provisions
are interpreted to the benefit of the American Indians,
and, absent explicit statutory language, courts should
refuse to find that Congress abrogated Indian treaty
rights. See County of Oneida v. Oneida Indian Nation,
470 U.S. 226, 247, 105 S.Ct. 1245, 84 L.Ed.2d 169 (1985).
Even so, “treaties cannot be re-written or expanded
beyond their clear terms to remedy a claimed injustice
or to achieve the asserted understanding of the parties.”
Choctaw Nation of Indians, 318 U.S. at 432, 63 S.Ct. 672
(citations omitted).
Furthermore, “to be valid, exemptions to tax laws
should be clearly expressed.” Squire, 351 U.S. at 6, 76
S.Ct. 611. Therefore, a tax exemption must “derive plainly”
from the treaty itself, and “[t]he intent to exclude must

13a
Appendix A
be definitely expressed, where, ... the general language
of the act laying the tax is broad enough to include the
subject-matter.” Superintendent of Five Civilized Tribes
v. Comm’r, 295 U.S. 418, 420, 55 S.Ct. 820, 79 L.Ed.
1517 (1935) (citations omitted). The Supreme Court has
“repeatedly said that tax exemptions are not granted
by implication” and “can not rest on dubious inferences.”
Mescalero Apache Tribe v. Jones, 411 U.S. 145, 156,
93 S.Ct. 1267, 36 L.Ed.2d 114 (1973) (citations omitted)
(interpreting the application of the Indian Reorganization
Act, 25 U.S.C. § 465, to state gross receipt taxes on a
ski resort operated by the Mescalero Apache Tribe off
reservation land).
The problem is more difficult when tasked with
determining if an American Indian treaty, as opposed
to a statute, gives rise to a tax exemption. The federal
income tax did not exist in its present form until 1913,
when the Sixteenth Amendment took effect. See U.S.
Const. amend. XVI. As a result, it is nearly impossible
for parties to treaties concluded prior to 1913 to have
contemplated an exemption to a tax on income. Despite
that, “doubts concerning the meaning of a treaty with an
Indian tribe should be resolved in favor of the tribe.” Or.
Dep’t of Fish & Wildlife v. Klamath Indian Tribe, 473 U.S.
753, 766, 105 S.Ct. 3420, 87 L.Ed.2d 542 (1985) (citations
omitted). Therefore, “the fact that the parties to a treaty
did not negotiate with the federal income tax in mind
is immaterial.” Lazore, 11 F.3d at 1184. Nevertheless,
complete “silence as to matters of taxation will never be
sufficient to establish an exemption.” Id.

14a
Appendix A
Thus, we are presented with contradictory doctrines:
we interpret Indian treaties liberally in favor of the
American Indians, but tax code exemptions cannot be
implied. Our sister circuits have ably dealt with the same
question. See, e.g., Lazore, 11 F.3d at 1184; Ramsey v.
United States, 302 F.3d 1074, 1078–79 (9th Cir. 2002).
Although they appear to disagree as to how they solve
this riddle, see, e.g., Lazore, 11 F.3d at 1184–85 & n.2, we
think this disagreement is without real difference.6
6. For example, the Third and the Eighth Circuits have
applied a liberal interpretation to American Indian treaties “only if
such ... treaty contains language which can reasonably be construed
to confer income [tax] exemptions.” Lazore, 11 F.3d at 1185 (first
alteration in original) (quoting Holt v. Comm’r, 364 F.2d 38, 40 (8th
Cir. 1966)). The Ninth Circuit, on the other hand, has reasoned
that “notwithstanding the canon of interpretation that resolves
ambiguities in statutes and treaties in favor of Indians, [courts]
have recognized that the intent to exempt income of Indians from
taxation must be clearly expressed.” Ramsey v. United States, 302
F.3d at 1079 (alterations and citations omitted and emphasis added).
And “unless express exemptive language is first found in the text
of the statute or treaty,” the Ninth Circuit does “not engage the
canon of construction favoring the [American] Indians.” Id. While
“[t]he language need not explicitly state that [American] Indians
are exempt from the specific tax at issue[,] it must only provide
evidence of the federal government’s intent to exempt Indians from
taxation.” Id. at 1078. Each circuit’s mode of interpretation requires
textual support within a treaty for a tax exemption before the canon
of liberal construction applies. Compare Ramsey, 302 F.3d at 1078
(“The applicability of a federal tax to Indians depends on whether
express exemptive language exists” but “[t]he language need not
explicitly state that Indians are exempt from the specific tax,” and
need only “provide evidence of the federal government’s intent to
exempt Indians from taxation.”) with Lazore, 11 F.3d at 1186–87

15a
Appendix A
We think the best approach is to first examine each
treaty at issue within its historical context. See Seneca
Nation of Indians, 382 F.3d at 259. If any exemptive
language is found within the treaty, we will interpret that
language liberally in favor of the American Indian; but in
doing so we will remain mindful that our interpretation
cannot re-write the treaty beyond the bounds of its
historical grounding and context. See Mille Lacs Band
of Chippewa Indians, 526 U.S. at 196, 119 S.Ct. 1187;
Choctaw Nation of Indians, 318 U.S. at 431–32, 63 S.Ct.
672. A liberal reading of a document does not authorize
unmooring it from its purpose or place in history.
III. The 1794 Treaty of Canandaigua
A. Historical Background
During the American Revolutionary War, the Seneca
Nation, along with the Cayuga, Onondaga, and Mohawk
nations aligned themselves with Great Britain. See, e.g.,
Oneida Indian Nation of N.Y. v. New York, 691 F.2d 1070,
1077 (2d Cir. 1982). While the 1783 Treaty of Paris, 8 Stat.
(finding that the Treaty of Canandaigua created no exemption to
the federal income tax despite language guaranteeing “free use
and enjoyment,” because there was no language “capable of being
construed more broadly”). Furthermore, the examples of exemptive
language given by the Ninth Circuit in Ramsey, including “[t]reaty
language such as ‘free from incumbrance,’ ‘free from taxation,’ and
‘free from fees,’ ” see Ramsey, 302 F.3d at 1078–79, demonstrate
that the Ninth Circuit requires little more than “language which
can reasonably be construed to confer [tax] exemptions,” Holt, 364
F.2d at 40.

16a
Appendix A
80 (Sept. 3, 1783), effectively ended the war by concluding
hostilities between the United States and Great Britain,
it was silent with respect to those members of the Six
Nations that supported the British. The 1784 Treaty of Fort
Stanwix, 7 Stat. 15 (October 22, 1784),7 between the United
States and all members of the Six Nations—including the
Oneida and Tuscarora nations, who supported the United
States in the war—ended hostilities between the United
States and the Haudenosaunee.
The Treaty of Fort Stanwix treated the loyalist
Haudenosaunee nations harshly compared to the Oneida
and Tuscarora: it required significant land cessions from
the Seneca, including the cession of the Six Nations’
claims to land in the Ohio Valley. See id. at Art. I–III.
“The net effect of this cession was to force the Senecas
to give up most of their land in New York to the national
government.” Jack Campisi & William A. Starna, On The
Road to Canandaigua: The Treaty of 1794, 19 Am. Indian
Q. 467, 469 (1995). The Treaty of Fort Stanwix, along with
the later treaties of Fort McIntosh and Fort Harmar,
caused considerable friction between the United States
and the Six Nations. See id. at 468–70. While one of the
United States’ primary concerns was securing land in
the Ohio Valley, 8 these treaties, in particular the Treaty
7. While there were several treaties concluded at Fort Stanwix,
hereinafter “the Treaty of Fort Stanwix” refers only to the treaty
concluded in 1784 between the United States and the Six Nations.
8. While the Treaty of Paris ceded control over the Ohio Valley
from Great Britain to the United States, see 8 Stat. at 81–82, it did
nothing to secure American settlement and claims in the region from
the American Indian nations residing therein.

17a
Appendix A
of Fort McIntosh, instead led to hostilities and violence
between the American Indian nations residing in the Ohio
Valley and the United States. See id. at 469–70.
Thus, the negotiations leading to the Treaty of
Canandaigua that took place from 1789 to 1794 were
motivated by the United States’ desire to secure the
neutrality of the Haudenosaunee nations as the United
States engaged in likely—and then open—warfare with
American Indian nations in the Ohio Valley. See generally
id. at 471–81. The primary issue resolved by the Treaty
of Canandaigua was disputed land cessions stemming
from both the Treaty of Fort Stanwix and the Treaty of
Fort Harmar. See id. at 470, 478–79 (“The great object of
the treaty ... was to remove complaints respecting lands”
(quoting the United States’ chief negotiator, Thomas
Pickering)). The effect of the Treaty of Canandaigua
was to restore to the Six Nations—in particular, the
Seneca—land ceded to the United States, New York, and
Pennsylvania. It also relinquished Haudenosaunee—in
particular, Seneca—claims over the Erie Triangle, a tract
of land near present Erie, Pennsylvania that runs from
New York’s western border to Ohio’s eastern border and
guarantees Pennsylvania access to Lake Erie. See id. at
483–86.
The Treaty of Canandaigua thus accomplished three
objectives: “(1) it secured for the United States whatever
title the Six Nations had to the Ohio Valley, thereby
strengthening its claims against those of other nations
[such as the British and French]; (2) it returned to the
Senecas the land they had lost at Fort Stanwix in 1784; and

18a
Appendix A
(3) it secured by treaty, which seemed a stronger assurance
than legislation to the Six Nations, their reservations in
New York, laid out in state agreements.” Id. at 486. The
core of the Treaty of Canandaigua concerned the Senecas,
“and those segments of other tribes that shared their
territory, the Cayugas and Onondagas,” because those
nations in particular “presented a threat to national
security” by virtue of being among the most powerful of
the Six Nations, the most aggrieved by previous treaties,
and therefore the most likely to present a military
impediment to the United States’ war with the nations in
the Ohio Valley. See id.
1. The Treaty of Canandaigua
The Treaty of Canandaigua contains seven articles.
See 7 Stat. 44. The preamble states that the purpose was
to “remov[e] from [the Six Nations’] minds all causes
of complaint, and establish[ ] a firm and permanent
friendship” between the Six Nations and the United
States.9 Most relevant to this appeal, Article III describes
the boundaries of the Seneca Nation’s territory, and then
states:
9. Article I states that “[p]eace and friendship are hereby
firmly established ... between the United States and the Six Nations.”
7 Stat. at 44. Article II contains an acknowledgement that land
reserved to the Oneida, Onondaga, and Cayuga nations by treaties
with the state of New York would never be claimed nor disturbed
by the United States, and contains nearly identical language to
Article III. Id. at 45. In Article IV, the Six Nations commit not to
“claim any other lands within the boundaries of the United States;
nor ever disturb the people of the United States in the free use and
enjoyment thereof.” Id.

19a
Appendix A
Now, the United States acknowledge all the
land within the aforementioned boundaries,
to be the property of the [Seneca] nation; and
the United States will never claim the same,
nor disturb the [Seneca] nation, nor any of the
Six Nations, or of their Indian friends residing
thereon and united with them, in the free use
and enjoyment thereof: but it shall remain
theirs, until they choose to sell the same to the
people of the United States, who have the right
to purchase.
7 Stat. at 45. The Haudenosaunee recorded the Treaty of
Canandaigua in the Two Row Wampum, a belt consisting
of two parallel rows of dark colored beads on a background
of white beads, which signify two peoples “coexisting
peacefully, neither imposing their laws or religion on the
other.” Lazore, 11 F.3d at 1186.10
B. The Treaty of Canandaigua Creates No
Exemption to Federal Income Taxation.
The Treaty of Canandaigua offers no textual support
for an exemption to the federal income tax. Article III’s
promise not to “disturb the [Seneca] ... in the free use and
enjoyment” of their land cannot be “reasonably construed
10. Because this case is before us on a motion for summary
judgment, we note that many of the historical facts surrounding
the Treaty of Canandaigua and the Treaty with the Seneca were
not submitted as part of the record per se. Nevertheless, neither
party disputes the historical record, and in fact both parties have
cited to some of the same cases and authorities from which we draw
contextual support.

20a
Appendix A
as supporting an exemption from the income tax.” See
Lazore, 11 F.3d at 1187. Several other circuit courts
have examined the Treaty of Canandaigua and rejected
the idea that this language created an exemption from
similar federal taxes. See, e.g., Lazore, 11 F.3d at 1186–87
(finding members of the Mohawk Nation were not exempt
from federal income taxation by virtue of their status
or by operation of the Treaty of Canandaigua); Cook v.
United States, 86 F.3d 1095, 1097–98 (Fed. Cir. 1996)
(rejecting an argument that the Treaty of Canandaigua
created an exemption for members of the Onondaga
Nation from federal excise taxes on the sale of diesel fuel
on Onondaga land). Like other treaty provisions which
secure the “peaceful possession” of American Indian
land, guaranteeing the “free use and enjoyment” of the
land “applies to the use of land,” not to taxes levied upon
individuals who profited from the use of the land. See Cook,
86 F.3d at 1097–98.
Neither the context of nor history surrounding
the Treaty of Canandaigua suggests that the parties
intended to address taxation at all. The Perkinses argue,
counterfactually, that the United States’ goal of “removing
from [the Six Nations’] minds all causes of complaint,”
7 Stat. at 44, would have been undermined by taxing
members of the Seneca Nation since doing so “would
have” given cause for complaint. See Pet’rs’ Br. 19. But
this ignores that the “great object of the treaty ... was to
remove complaints respecting lands” that had been ceded
by the Senecas as punishment for their participation in the
Revolutionary War. See Campisi & Starna, supra, at 479.11
11. Few citizens welcome taxation, but the Treaty’s focus was
Haudenosaunee complaints respecting land.

21a
Appendix A
Thus “free use and enjoyment” is better interpreted
as preventing American encroachment onto Seneca lands,
or interference with the Seneca Nation’s use of its lands.
See, e.g., Jourdain v. Comm’r, 617 F.2d 507, 508–509 (8th
Cir. 1980) (per curiam) (finding language in the Treaty
with the Tribes of Indians of Greenville guaranteeing
freedom from “molestation from the United States” sought
only to prevent “interference with the rights of Indians
to hunt and otherwise enjoy their land, not the ‘right’ to
be free from federal taxation.”).
This conclusion is supported by more contemporaneous
examples of encroachment by private citizens onto Seneca
land. For example, less than sixty years after the Treaty
was concluded, the Supreme Court applied the Treaty
of Canandaigua and two later treaties, the 1838 Treaty
with the New York Indians (hereinafter the “Treaty of
Buffalo Creek”) and the 1842 Treaty with the Seneca, to
permit an action in trespass against private citizens who
forcibly removed a member of the Seneca Nation from the
Tonawanda territory. See, e.g., Fellows v. Blacksmith, 60
U.S. (19 How.) 366, 371–72, 15 L.Ed. 684 (1856). Therefore,
we find the language “free use and enjoyment” creates no
exemption from federal income taxation.
The Perkinses urge us to follow dicta from several
courts interpreting the Treaty of Canandaigua or
analogous language that suggests the treaty might create
an exemption for income derived from the land. See, e.g.,
Lazore, 11 F.3d at 1187; Hoptowit v. Comm’r, 709 F.2d
564, 566 (9th Cir. 1983). The Third Circuit, for example,
hypothesized that the Treaty of Canandaigua’s guarantee

22a
Appendix A
of “free use and enjoyment” “might be sufficient to support
an exemption from a tax on income derived directly from
the land.” Lazore, 11 F.3d at 1187 (citation omitted). In
Lazore, two members of the Mohawk Nation claimed they
were generally exempt from paying federal income taxes
by virtue of their membership in the Mohawk Nation. See
id. at 1181. The Lazores received income as compensation
for their employment, Mr. Lazore was a mechanic and
Mrs. Lazore was an executive director for the Mohawk
Indian Housing Corporation. They claimed that their
membership in the Mohawk Nation exempted them from
federal taxes, and did so by pointing to, among other
sources, the Treaty of Canandaigua. See id. at 1182. The
Third Circuit disagreed with the Lazores that the Treaty
of Canandaigua’s guarantee of “free use and enjoyment”
was “capable of being reasonably construed as supporting
an exemption from the income tax,” but speculated based
on the Circuit’s analysis of Hoptowit that “[t]he language
relied on by the Lazores might be sufficient to support
an exemption from a tax on income derived directly from
the land.” Id. at 1187 (citing Hoptowit, 709 F.2d at 566).
Because the language could not be construed more broadly
to serve as a general exemption from income tax liability,
the Third Circuit rejected the Lazores’ claim. See id.
Similarly, the Ninth Circuit postulated that “any
tax exemption created by” the language “exclusive use
and benefit” in the Treaty with the Yakimas of 1855, 12
Stat. 951 (June 9, 1855), “is limited to the income derived
directly from the land.” Hoptowit, 709 F.2d at 566. In
Hoptowit, the Ninth Circuit rejected claims that payments
to a member of the Yakima Indian Nation for service as

23a
Appendix A
an elected Tribal Council Member were exempt from
federal income taxation. See id. at 565. Hoptowit argued
that treaty language setting out certain land “for the
exclusive use and benefit of [the Yakima]” “guarantee[d]
the Tribe’s right to distribute the income from the
reservation’s resources for the exclusive benefit of its
members,” and “express[ed] a tax exemption as clearly
as was possible a half century before the enactment of
federal income taxation.” Id. at 565–66 (quoting 12 Stat. at
952). The Ninth Circuit had previously relied on Squire v.
Capoeman, 351 U.S. 1, 76 S.Ct. 611, 100 L.Ed. 883 (1956),
to draw a line between income earned in compensation for
services and income that was “derived directly from the
land.” See id. at 566 (discussing Comm’r v. Walker, 326
F.2d 261 (9th Cir. 1964)). The Court found that its analysis
was “equally applicable” to Hoptowit, and that “any tax
exemption created by [the Treaty’s] language is limited
to the income derived directly from the land. It [did] not
extend to the use of that income to compensate Hoptowit
for his service as a Tribal council member.” Id.
The Perkinses argue that Lazore and Hoptowit compel
us to accept that “free use and enjoyment” “confer[s] a
federal tax exemption for income earned from the sale
of gravel mined on the Seneca Nation’s territory.” Pet’rs’
Br. 27–28. We disagree. Lazore and Hoptowit attempt to
extend the Supreme Court’s logic in Squire beyond the
statutory context—the General Allotment Act—in which
Squire was decided.
The General Allotment Act was intended to conform
American Indian land ownership to the individual

24a
Appendix A
property ownership existing in much of the United States
by dividing American Indian reservations into uniform
parcels of private land called “allotments.” See 24 Stat.
at 388; see also United States v. Anderson, 625 F.2d 910,
912 (9th Cir. 1980). Allotments were generally inalienable
because they were held in trust by the United States for
an individual American Indian and his or her heirs. See
Anderson, 625 F.2d at 912. At the end of the trust period,
allottees were to receive their lands “in fee, discharged
of said trust and free from all charge or incumbrance
whatsoever.” 24 Stat. at 389.
In Squire v. Capoeman, 351 U.S. 1, 76 S.Ct. 611,
100 L.Ed. 883 (1956), the Supreme Court found that the
General Allotment Act exempted from federal capital
gains taxes proceeds from the sale of timber on land
allotted to a member of the Quinaielt Tribe of Indians.
Amendments to the General Allotment Act provided
to the Secretary of the Interior the power to “issue” a
“patent in fee simple,” thereby removing “restrictions as
to sale, [e]ncumbrance, or taxation” once the Secretary
was “satisfied that any Indian allottee is competent and
capable of managing his or her affairs ....” Id. at 7, 76 S.Ct.
611. Amendments to the Act supported exempting the
timber revenue from federal taxation because “it [was]
not lightly to be assumed that Congress intended to tax
the ward for the benefit of the guardian.” Id. at 8, 76 S.Ct.
611. Furthermore, because the timber at issue constituted
the primary value of the allottee’s land, unless the revenue
from its sale was preserved for the allottee and was not
taxed, he would not “go forward when declared competent
with the necessary chance of economic survival” that the

25a
Appendix A
Act sought to impart. Id. at 10, 76 S.Ct. 611. Thus “to
prepare the Indians to take their place as independent,
qualified members of the modern body politic ... it [was]
necessary to preserve the trust and income derived
directly [from allotted land].” Id. at 9, 76 S.Ct. 611 (internal
quotation marks and citation omitted).
If the Perkinses had mined gravel from land held in
trust by the United States for Alice or one of her ancestors,
it is evident that Squire would operate to exempt the
gravel-mining income from federal taxes. However, as the
tax court noted, the Perkinses were right to abandon their
reliance on the General Allotment Act prior to summary
judgment. The General Allotment Act has never applied
to the Seneca Nation’s territories. See 25 U.S.C. § 339.
Furthermore, the Seneca Nation’s land remains held in
fee simple by the Nation itself; it is neither “allotted” to
nor held in trust for any individual member by the United
States Government.
The key to the Supreme Court’s decision in Squire
was that “[t]he purpose of the allotment system was to
protect the Indians’ interest and to prepare [them] to
take their place as independent, qualified members of the
modern body politic.” 351 U.S. at 10, 76 S.Ct. 611 (internal
quotation marks omitted). Thus it was “necessary to
preserve the trust and income derived directly [from the
allotted land].” Id. at 9, 76 S.Ct. 611 (citation omitted). The
paternalistic rationale of Squire is intimately related to
the idea that certain land was held in trust for American
Indian individuals; it has little application where the
relevant income derives from a license over land belonging

26a
Appendix A
to an American Indian nation, or from land not allotted
to the individual American Indian.12
Other courts have rightly refused to extend Squire
to income derived from land that is not allotted to an
American Indian taxpayer.13 The specific tax exemption
created by the Supreme Court’s interpretation of the
General Allotment Act “was to provide the allottee with
12. This is especially so where Congress has historically
treated American Indian nations themselves—through their
governing entities—differently from individual members of those
nations. Compare, e.g., Uniband, Inc. v. Comm’r, 140 T.C. 230, 241,
245 (2013) (“[F]ederally recognized Indian tribes are not subject
to Federal income tax” because “Congress has never imposed
the Federal income tax on Indian tribes.”) with Federal Power
Comm’n, 362 U.S. at 116, 80 S.Ct. 543 (“[I]t is now well settled by
many decisions of [the Supreme] Court that a general statute in
terms applying to all persons includes Indians and their property
interests.”).
13. See, e.g., Anderson, 625 F.2d at 914–15 (finding the General
Allotment Act did not exempt from income taxes income derived by
Sioux member of Fort Peck Tribes from cattle ranching on tribal
land “under land-use program licenses”); Fry v. United States,
557 F.2d 646, 648–50 (9th Cir. 1977) (finding income derived by
taxpayers, who were members of the Confederated Tribes of the
Colville Reservation, from logging operations on reservation land
was not exempt from federal income taxes even if the income derived
by the Tribe from the same logging operation was tax exempt); Holt,
364 F.2d at 41–42 (finding no income tax exemption for taxpayer, a
member of the Cheyenne River Sioux, who derived income from cattle
and grazing operation on tribal land pursuant to a lease granted by
the tribe because tax was neither an encumbrance upon tribal land,
nor did retention of title to the land and cattle by the tribe create a
trust relationship).

27a
Appendix A
unencumbered land when he became competent,”14 “not
to benefit him simply because he was an [American]
Indian.” Anderson, 625 F.2d at 914 (internal quotation
marks omitted). Furthermore, if income derived from
allotted land was taxable, and the tax was not paid, the
resulting tax lien would “make it impossible for [the
American Indian taxpayer] to receive the land free of
[e]ncumbrance at the end of the trust period.” Id. (internal
citations omitted).
The logic of Squire does not extend to exempt from
taxation income derived from land reserved to the Seneca
Nation by the Treaty of Canandaigua. To the extent dicta
in Lazore and Hoptowit suggests otherwise, we disagree.
The Seneca Nation’s land was never subject to the General
Allotment Act, and even though individual members of the
Nation may obtain possessory interests in the land, the
Nation otherwise retains the land in fee simple. Like the
petitioners in Holt and Anderson, the Perkinses extracted
gravel from the land pursuant to a license granted by the
Seneca Nation; they were neither allotted that land by the
Nation nor by congressional act. The land was not held in
trust for their benefit, and therefore the exemption from
Squire has no application to their petition. Furthermore,
taxing the income that individual members derive from
extracting natural resources from Seneca land will
not interfere with the Seneca Nation’s “free use and
enjoyment” of that land: unpaid taxes will not create a
lien or encumbrance on the land—only on the income and
chattel of the individual members engaged in extraction.
14. “Competence” in this context refers only to an American
Indian’s ability to alienate the land allotted to him or her without
the United States’ permission. See Anderson, 625 F.2d at 913 n.2.

28a
Appendix A
The Perkinses further argue that the Treaty of
Canandaigua’s promise of “free use and enjoyment” to
the Seneca Nation itself extends to the Nation’s “Indian
friends,” a term which they assert includes Alice as a
member of the Seneca Nation. We disagree. That term
is better understood as referring to the affiliated nations
making up the Six Nations, including the Onondagas
and Cayugas. The Supreme Court has interpreted that
term in other treaties with the Seneca to specifically
refer to the Cayugas and Onondagas. See, e.g., Fellows v.
Blacksmith, 60 U.S. (19 How.) 366, 368, 15 L.Ed. 684 (1856)
(discussing that the Treaty of Buffalo Creek set aside
land west of Missouri as intended for the “[t]he Seneca
tribe, including among them their friends, the Onondagas
and Cayugas ....”); see also 1838 Treaty of Buffalo Creek,
7 Stat. 550, 553 (Jan. 15, 1838) (“It is agreed with the
Senecas that they shall have for themselves and their
friends, the Cayugas and Onondagas, residing among
them ....”). Nothing in the Treaty of Canandaigua suggests
nearly identical language should be viewed differently.
To the contrary, the context and negotiations
surrounding the Treaty of Canandaigua demonstrates
that “Indian friends” refers to the nations affiliated with
the Senecas. The Senecas and their allies (their “friends”)
presented a military threat to the United States that the
federal government sought to neutralize through treaty.
And if there were any doubt, that language is not used
in Article VII, wherein the United States and the Six
Nations specifically address actions by “individuals on
either side.” 7 Stat. at 46, Art. VII. Article VII does not
use the term “Indian friends” or “their friends” to refer

29a
Appendix A
to individual members of the Seneca Nation or of any of
the other Six Nations.
Finally, in an effort to construe “free use and
enjoyment” as providing textual support for an exemption
from taxes, the Perkinses argue that the Treaty of
Canandaigua must be read in pari materia, or construed
together, with the 1842 Treaty with the Seneca, which
contains an explicit textual exemption from taxation that
we discuss in detail below. See Pet’rs’ Br. at 21–25. We
disagree that the two treaties must be construed together.
The Treaty with the Seneca was concluded in large part
to remedy a specific grievance related to state taxes and
liens placed upon Seneca land. In contrast, the language
“free use and enjoyment” in the Treaty of Canandaigua
is better understood as restoring to the Seneca Nation
autonomy and control over specific lands that were ceded
in the treaties of Fort Stanwix and Fort Harmar.
We therefore reject the Perkinses argument that
any guarantee of “free use and enjoyment” in the Treaty
of Canandaigua exempts their gravel-mining income
from federal income taxation. Because the Treaty of
Canandaigua contains no textual support for an individual
exemption from federal income taxation, we need not
proceed to interpret the treaty liberally.
IV. The 1842 Treaty with the Seneca
A. Historical Background
The Treaty with the Seneca has a more convoluted
history than the Treaty of Canandaigua. In 1786,

30a
Appendix A
Massachusetts settled a dispute over territory with
New York by purchasing rights of pre-emption over
lands in Western New York that included the Allegany,
Cattaraugus, Buffalo Creek, and Tonawanda territories
of the Seneca Nation. See, e.g., In re New York Indians, 72
U.S. (5 Wall.) 761, 761–62, 18 L.Ed. 708 (1866). This meant
that Massachusetts had exchanged claims over much of
what is now Western New York for the right to purchase
that land from the Haudenosaunee should they ever choose
to sell it. See id. at 762–63. Massachusetts eventually sold
those pre-emption rights, and by 1838 they became vested
with two private businessmen: Thomas Ogden and Joseph
Fellows. See id.
In 1838, Ogden and Fellows purchased all of the Seneca
Nation’s land in New York, including the Buffalo Creek,
Cattaraugus, Allegany, and Tonawanda territories for
$202,000. With this purchase, the Seneca Nation entered
into the 1838 Treaty of Buffalo Creek, 7 Stat. 550 (Jan.
15, 1838). The Treaty of Buffalo Creek contemplated that
the Senecas would relocate west of the Mississippi within
five years, that the federal government would hold part of
the purchase price in trust for the Nation, and that half of
the purchase price would be paid severally to individual
members of the Seneca Nation for improvements on the
purchased land.15 See 7 Stat. at 551–53. Ogden and Fellows
15. The attempted removal of the Haudenosaunee to the
West has a complex history that is not strictly relevant to this
appeal. See generally Felix S. Cohen, HANDBOOK OF FEDERAL
INDIAN LAW 420 (1942). In summary, while members of certain
Haudenosaunee nations did relocate to Wisconsin and Kansas, the
Seneca Nation in particular resisted resettlement and instead opted
to remain in Western New York. See id.

31a
Appendix A
would not have a possessory right over the land until 1845.
See, e.g., New York Indians, 72 U.S. at 763.
In 1840 the legislature of the State of New York
passed an act assessing a highway tax on the Allegany and
Cattaraugus territories. See id. In 1841, the legislature
passed another act that authorized county assessors to
assess taxes and survey for roads on land in the Allegany,
Cattaraugus, and Buffalo Creek territories. See id.
at 763–64. Under those two acts, county supervisors
assessed taxes on land that was part of the Cattaraugus
territory—land still occupied by the Seneca Nation, and
not yet vested to Ogden and Fellows. See id. at 764. When
those taxes went unpaid, the state imposed liens upon
the assessed land and seized that land which, under the
Treaty of Buffalo Creek, the Senecas had a right to occupy
until 1845. See id. at 764–65. From 1840 to 1843, portions
of the Cattaraugus territory were sold for unpaid taxes,
despite the fact that the Seneca Nation continued to occupy
the land. Id. The Supreme Court eventually invalidated
those taxes under the Treaty of Buffalo Creek and the
Treaty with the Seneca, see New York Indians, 72 U.S.
at 767–72 (finding the taxes imposed on land occupied by
the American Indian nations at issue were invalid until
after the Senecas had vacated the land), but there were
other disagreements between Ogden, Fellows, and the
Seneca Nation arising from the Treaty of Buffalo Creek,
see, e.g., Fellows, 60 U.S. at 367–72.
For example, although the Treaty of Buffalo Creek
contemplated that the Haudenosaunee would relocate
West of the Mississippi within five years, there were no

32a
Appendix A
provisions outlining any method of removal. See, e.g.,
Fellows, 60 U.S. at 366. Even after the later 1842 Treaty
with the Seneca, the Supreme Court entertained an action
for trespass brought by a member of the Tonawanda
band of the Seneca Nation against Fellows and several
other men who had taken possession of his timber mill
through force of arms. See generally Fellows, 60 U.S. at
367–73. Furthermore, certain members of the Seneca
Nation disputed the validity of the deed granting land
to Ogden and Fellows on the grounds that it was not
signed by a majority of the chiefs of the Seneca Nation,
and alleging that bribes and fraud were used to secure
signatures to the deed. See Felix S. Cohen, HANDBOOK
OF FEDERAL INDIAN LAW 420 (1942).
1. The 1842 Treaty with the Seneca
The United States concluded the 1842 Treaty with the
Seneca in an effort to resolve disagreements stemming
from the Treaty of Buffalo Creek, including restoration
of Seneca ownership over the Allegany and Cattaraugus
territories. See 1842 Treaty with the Seneca, 7 Stat. 586
(May 20, 1842). The preamble of the Treaty with the
Seneca is specific: it recites the history of the Treaty of
Buffalo Creek, including Ogden and Fellows’s purchase
of Seneca land, and states that all parties to the treaty
“have mutually agreed to settle, compromise and finally
terminate all such [diverse] questions and differences on
the terms” of the Treaty of Buffalo Creek. 7 Stat. at 587.16
16. The Treaty with the Seneca also provided for payments to
individual members of the Seneca Nation for improvements made on
land within the Buffalo Creek and Tonawanda territories that Ogden

33a
Appendix A
Article IX of the Treaty with the Seneca states:
The parties to this compact mutually agree to
solicit the influence of the Government of the
United States to protect such of the lands of
the Seneca Indians, within the State of New
York, as may from time to time remain in their
possession from all taxes, and assessments for
roads, highways, or any other purpose until
such lands shall be sold and conveyed by the
said Indians, and the possession thereof shall
have been relinquished by them.
7 Stat. at 590.
B. The Text of the 1842 Treaty with the
Seneca Does Not Support an Exemption to
Federal Income Taxation
Because the Treaty with the Seneca clearly contains
textual support for an exemption from taxes of some kind,
this Court must construe the treaty liberally, interpreting
it as the Seneca would have understood it, and analyzing
the language employed in light of its historical background.
See Mille Lacs Band of Chippewa Indians, 526 U.S. at 196,
119 S.Ct. 1187; Choctaw Nation of Indians, 318 U.S. at 432,
63 S.Ct. 672 (“[T]reaties cannot be re-written or expanded
and Fellows had purchased. See id. at Arts. III–VI, 7 Stat. at 588–89.
Furthermore, if the Senecas relocated West of the Mississippi, any
individual members of the Nation owning improvements on the
Cattaraugus or Allegany territories would be paid for the value of
such improvements when sold. Id. at Art. VI.

34a
Appendix A
beyond their clear terms to remedy a claimed injustice or
to achieve the asserted understanding of the parties.”);
Seneca Nation of Indians, 382 F.3d at 259. However, even
construing the Treaty with the Seneca liberally, we find
insufficient textual and historical support to read into the
treaty an exemption for individual members of the Seneca
Nation for taxes on income derived from Seneca land.
Article IX exempts “the lands of the Seneca Indians”
“from all taxes, and assessments for roads, highways, or
any other purpose until such lands be sold and conveyed”
by the Seneca. 7 Stat. at 590. The Treaty neither addresses
taxing the income of individual members of the Nation,
nor does it address income that derives from “the lands
of the Seneca.” And while we are bound to interpret
ambiguities liberally in favor of the Perkinses, we cannot
rewrite the Treaty with the Seneca or expand it beyond
its terms to cover individual federal income taxation. See
Choctaw Nation of Indians, 318 U.S. at 432, 63 S.Ct. 672.
Similarly, interpreting the treaty as the Seneca would
have understood it does not counsel finding an exemption
covering the Perkinses’ gravel-mining income.
Only by reading the specific words “to protect such of
the lands of the Seneca ... from all taxes” in isolation is it
possible to ignore that Article IX as a whole was intended
to prevent the imposition of specific taxes imposed by the
State of New York on land belonging to the Nation. See
New York Indians, 72 U.S. at 763–64. As a result, Article
IX of the Treaty with the Seneca cannot be construed to
create an exemption to income taxes on income earned
from land owned by the Seneca Nation. See, e.g., Choctaw

35a
Appendix A
Nation of Indians, 318 U.S. at 432, 63 S.Ct. 672 (finding
that, absent evidence of understanding warranting
departure from plain language of agreement it “must be
interpreted according to its unambiguous language”);
Mescalero Apache Tribe, 411 U.S. at 156, 93 S.Ct. 1267
(“[A]bsent clear statutory guidance, courts ordinarily
will not imply tax exemptions and will not exempt offreservation income from tax simply because the land from
which it is derived, or its other source, is itself exempt
from tax.”);17 Ramsey, 302 F.3d at 1078.
None of the cases specifically interpreting the Treaty
with the Seneca suggest otherwise. For example, New York
Indians invalidated New York State’s tax assessments
on Seneca land, which implicated the very purpose and
language of the Treaty with the Seneca. See 72 U.S.
at 769–72. Furthermore, contrary to the Perkinses’
argument, Fellows v. Blacksmith, 60 U.S. (19 How.) 366,
15 L.Ed. 684 (1856), is inapposite. Fellows permitted a
member of the Tonawanda band of the Seneca Nation
to sue Joseph Fellows and other individuals for trespass
after they sought to forcibly dispossess him of his land in
Genesee County. See id. at 366–69. An individual right to
17. While Mescalero interprets a federal statute rather than a
treaty, there is no reason to think that a different rule would apply
when doing so would create a hodge-podge of laws that tax individual
citizens differently. We also reject the Perkinses’ scattershot of
arguments that claim any exemptions available to the Seneca Nation
must also inure to the benefit of its individual members, see, e.g.,
Pet’rs’ Br. 33–34; Pet’rs’ Reply Br. 22–24, because, as noted above,
American Indian nations are treated differently from individual
members, see supra n.12.

36a
Appendix A
an exemption from federal income taxes does not reason
from a legal conclusion affirming a possessory interest
in land. Nor did the Supreme Court discuss or interpret
Article IX—even though it recited and discussed several
of the other articles of the Treaty with the Seneca. See
generally id.
In United States v. Kaid, 241 F. App’x 747 (2d Cir.
2007) (summary order), this Court rejected arguments
that the Treaty with the Seneca prohibited taxation of
cigarette sales made on reservations to non-American
Indians, because “the treaty ... clearly prohibit[s] only
the taxation of real property, not chattels like cigarettes.”
Id. at 750–51 (citing Snyder v. Wetzler, 193 A.D.2d 329,
330–32, 603 N.Y.S.2d 910 (1993) (finding Article IX of the
Treaty with the Seneca “refers only to taxes levied upon
real property or land” in light of the history behind the
treaty), aff’d, 84 N.Y.2d 941, 620 N.Y.S.2d 813, 644 N.E.2d
1369 (1994)). The Perkinses are correct that Kaid is not
binding on this panel; and their argument is supported
by the fact that Kaid and other state court decisions
interpreting the Treaty with the Seneca deal with
excise taxes on goods rather than income “derived” from
Seneca land. We nevertheless agree with our colleagues’
reasoning in Kaid, and we refuse to read the Treaty with
the Seneca so expansively as to apply to income taxes
where that income was derived from the sale of gravel on
Seneca land. Doing so would contort the plain language of
an otherwise unambiguous treaty. We decline to expand
the treaty without any support in the historical record for
doing so. See, e.g., Five Civilized Tribes, 295 U.S. at 420,
55 S.Ct. 820; Mescalero, 411 U.S. at 156, 93 S.Ct. 1267;
Ramsey, 302 F.3d at 1079.

37a
Appendix A
C. That the Perkinses’ Income Derives from Seneca
Land Does Not Compel a Different Result.
Although we find the tax exemption contained in
Article IX is limited to Seneca land,18 we must determine
whether an exemption from taxes on land must extend to
the Perkinses’ gravel-mining income since their income
“derives” from Seneca land. It does not. There are good
reasons to treat income earned on the sale of gravel
extracted from Seneca land differently than the real
property itself.
First, there is a meaningful difference between taxing
income derived from land allotted to individual American
Indians under the General Allotment Act and income
derived from land belonging to an American Indian nation.
Taxes levied upon real property may lead to tax liens and
dispossession from that real property, whereas taxing
income earned from selling natural resources—such as
timber or gravel—does not present the same concern.
This is especially so where, as here, the land is not owned
by the taxpayer.
Second, ownership of mineral rights, including for the
mining of gravel and sand, are routinely separated from
ownership of real property. Many states—including New
York—have historically taxed mineral and subsurface
rights separately from real property itself. See, e.g., Smith
18. We only address the scope of the tax exemption appearing
in Article IX of the Treaty with the Seneca to the extent necessary
to determine the Perkinses’ appeal. We need not determine whether
that exemption is limited to state—as opposed to federal—taxation.

38a
Appendix A
v. Mayor of New York, 68 N.Y. 552, 555 (1877) (“[O]ne may
be taxed as owner of the fee of land, and another for the
trees, buildings and other structures thereon, and the
minerals and quarries therein.”). To the extent natural
resources such as gravel or timber can be harvested and
then sold, it is obvious that those items are severable from,
and can be taxed separately from, the land itself. Article
IX of the Treaty with the Seneca was aimed at preventing
the State of New York from taxing land belonging to the
Seneca Nation, not the sale of resources derived from
that land.
Finally, the Seneca Nation treats ownership of the
land, possessory interests in land, and the right to extract
gravel and other resources from its land differently. See,
e.g., J.A. 98–102 §§ 102(C), (F), (R), (U), 302. The Nation
itself holds the land in the Allegany and Cattaraugus
territories in fee simple, and it grants to individual
members possessory interests in plots of land. See J.A.
100 § 102(R); see also Statement of Undisputed Facts,
Perkins v. United States, No. 16-cv-00495 Dkt. 72-1 at
¶ 8 (W.D.N.Y). The Nation may then permit members or
non-members to extract gravel from land belonging to
the Nation. See J.A. 102 § 302.
Because a property interest in a permit to extract
gravel from certain land is different from possession of
the land in fee simple, it is logical that one rule would
apply to taxation of the surface or subsurface of the land
and another would apply to the product of mining from
a permit to that land. This is especially true in light of
the historical context underpinning the Treaty with the
Seneca.

39a
Appendix A
We find neither textual nor contextual support for
extending the tax exemption contained in Article IX to
income derived by individuals from Seneca land.
CONCLUSION
We AFFIRM the judgment of the tax court and
remand for further proceedings consistent with this
opinion.

40a
Appendix Bof the united
Appendix B — decision
states tax court, dated may 30, 2019
UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket No. 28215-14
ALICE PERKINS & FREDRICK PERKINS,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
DECISION
This case is calendared for trial at the Buffalo, New
York trial session commencing June 3, 2019. On May
28, 2019, the parties filed a Joint Stipulation of Settled
Issues, wherein respondent conceded the section 6662(a)
accuracy-related penalties, which was the only issue
remaining for the 2008 and 2009 taxable years at issue
in this case.
Pursuant to the determination of the Court as set
forth in its Opinion (150 T.C. No. 6) filed March 1, 2018,
and incorporating herein the parties’ Joint Stipulation of
Settled Issues, filed May 28, 2019, it is hereby

41a
Appendix B
ORDERED A ND DECIDED t hat t here a re
deficiencies and penalties due from petitioners for the
taxable years 2008 and 2009 as follows:
Additions to
tax

Year

Deficiency

2008
2009

$198,696
203,355

Accuracyrelated
penalties
I.R.C. Section I.R.C. Section
6651(a)
6662(a)
$49,645.50
-050,837.00
-0-

/s/ Joseph H. Gale		
Judge
ENTERED: MAY 30, 2019
SERVED: MAY 30, 2019

42a
Appendix COF THE UNITED
APPENDIX C — OPINION
STATES TAX COURT, FILED MARCH 1, 2018
UNITED STATES TAX COURT
ALICE PERKINS AND FREDRICK PERKINS,
Petitioners,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
March 1, 2018, Filed
Docket No. 28215-14
OPINION
HOLMES, Judge:
Alice Perkins is an enrolled member of the Seneca
Nation, which has been and remains the largest Indian
nation within the Iroquois Confederacy and the largest
population of Indians in western New York.1 Perkins and
1. Nomenclature is fraught in this field. The Senecas refer to
themselves in their own language as the O-non-dowa-gah. Their
government strongly prefers to be called a nation rather than a tribe,
and the official name of the Nation in English is the “Seneca Nation
of Indians.” See Seneca Nation of Indians, https://sni.org (last visited
Sept. 12, 2017); Seneca Nation of Indians FAQ, https://sni.org (last
visited Sept. 12, 2017).

43a
Appendix C
her husband live on Seneca property and got permission
from the Nation’s government to mine and sell gravel
during 2008 and 2009. They argue that their income from
these sales is exempt from federal taxation under the
terms of several treaties signed when the United States
were in their infancy, which the Perkinses say promise that
the federal government won’t tax members of the Seneca
Nation on this kind of income. Both parties are before the
Western District of New York in an essentially identical
refund case, and the Perkinses recently won the argument
there, withstanding the Government’s motion to dismiss.
See Perkins v. United States, No. 16-CV-495(LJV), 2017
U.S. Dist. LEXIS 123543, 2017 WL 3326818 (W.D.N.Y.
Aug. 4, 2017).
The Commissioner nevertheless argues that we have
dealt with this issue many times before and there’s no
tax exemption to be found. He thinks this case is ripe for
summary judgment.
Background
Alice Perkins and her husband Fredrick live on the
Allegany Territory of the Seneca Nation. In 1985 Alice
began a trucking business called A&F Trucking. The
The Nation’s own website is agnostic on the question of referring
to Senecas as “Indians” or “Native Americans.” See Seneca Nation
of Indians FAQ. Much of the literature in this area refers to “Indian
law” and “Indian treaties” and the like, however; so to maintain some
continuity with this legal-historical past, we will use the traditional
nomenclature, but we will use “Nation” when we refer to the Senecas’
government and collective term for themselves in English.

44a
Appendix C
Perkinses’ tax returns suggest Fredrick worked for the
company as a truck driver.
The record doesn’t tell us all the services A&F
Trucking performed, but it does show that the Perkinses
were interested in mining gravel on the Nation’s land.
This meant they had to win permission from the Nation’s
Council. Alice won that permission for A&F Trucking in
2008. No one disputes that she mined and sold the gravel
in both 2008 and 2009. In June 2009 the Nation withdrew
the permit, but the business had piled up enough gravel
to continue to sell it into 2010. The record does not tell
us how much gravel was dug up or who bought it, but the
Perkinses’ tax returns show that the business had almost
$1.5 million in gross receipts from 2008 and nearly $1.7
million from 2009.
The Perkinses didn’t file their 2008 and 2009 tax
returns until October 2011, which means both returns
were late. The Perkinses attached a “detail sheet” to
each return that said the income from the gravel was
from “Native American land not subject to federal income
taxes.” On disclosure statements, they explained:
The taxpayer is claiming that the revenue from
gravel income earned from the depletion of
his land is not subject to federal income tax[.]
The US Tax Court concluded that a federal
income tax exemption was created by the
Indian General Allotment Act of 1887 ch 119
for income that an individual Indian allottee
derives directly from the land held in trust for

45a
Appendix C
him citing Squire v. Capoeman * * * [Spelling
corrected.]
The Commissioner soon showed up to dispute this claim.
In August 2014 he sent the Perkinses a notice of deficiency
for their 2008 through 2010 tax years. He said that the
gravel income was taxable and that he would impose
penalties under sections 6651(a)(1) and 6662(a). 2
The Perkinses responded by filing a Tax Court
petition for their 2008 and 2009 tax years. 3 During
discovery, the Perkinses sent an email to the IRS stating
that their argument was now based on two treaties—the
Canandaigua Treaty, Nov. 11, 1794, 7 Stat. 44,4 and the
Treaty with the Seneca, May 20, 1842, 7 Stat. 586 (1842
Treaty). The Commissioner saw his chance and moved for
summary judgment on the issues of whether the gravel
income is taxable and whether the Perkinses should pay
penalties.

2. All section references are to the Internal Revenue Code in
effect for 2008 and 2009, and all Rule references are to the Tax Court
Rules of Practice and Procedure unless we say otherwise.
3. The Commissioner initially disputed a number of other items
in the notice of deficiency, but the only argument the Perkinses made
in their petition was that the gravel wasn’t taxable and they shouldn’t
have to pay penalties. That means that we deem the other items in the
notice of deficiency conceded by the Perkinses under Rule 34(b)(4).
4. The Canandaigua Treaty is also known as the Treaty of the
Six Nations, which is the name some courts use. See, e.g., Sylvester
v. Commissioner, T.C. Memo. 1999-35, 1999 WL 49773, at *2 n.3.

46a
Appendix C
For their 2010 tax year the Perkinses paid the alleged
deficiency and filed a refund suit in U.S. District Court.
See Perkins v. United States, 119 A.F.T.R.2d (RIA) 2017595 (W.D.N.Y. 2017). After some pretrial maneuvering,
the Government in that case made the same argument
that the Commissioner makes here—that neither the
Canandaigua Treaty nor the 1842 Treaty exempts the
Perkinses’ gravel-sales income from federal taxation.
Id. at 2017-596. Magistrate Judge Scott of the Western
District of New York issued a report and recommendation
that the District Court deny the Government’s motion
to dismiss based on the Canandaigua Treaty but grant
its motion based on the 1842 Treaty. Id. at 2017-600 to
2017-601. Both parties objected, see Fed. R. Civ. P. 72,
and District Judge Vilardo very recently adopted Judge
Scott’s recommendation about the Canandaigua Treaty
but rejected his recommendation about the 1842 Treaty,
Perkins, 2017 U.S. Dist. LEXIS 123543, 2017 WL 3326818,
at *1. He denied the Government’s motion to dismiss. 2017
U.S. Dist. LEXIS 123543, [WL] at *5.
This presents an unusual opportunity for two courts
to analyze the same question about the same taxpayers
at the same time.
Discussion
We begin with some general principles. We may grant
summary judgment when there’s no genuine dispute
of material fact and a decision may be rendered as
matter of law. Rule 121(b); see, e.g., Sundstrand Corp. v.
Commissioner, 98 T.C. 518, 520 (1992), aff’d, 17 F.3d 965

47a
Appendix C
(7th Cir. 1994). There is no genuine dispute of material
fact here, so we may move straight to the law.
The relevant law begins with a reminder that
American Indians have all been American citizens since
1924. Indian Citizenship Act of 1924, ch. 233, 43 Stat.
253. Federal tax law applies to every American, including
Indians and their property interests. Fed. Power Comm’n
v. Tuscarora Indian Nation, 362 U.S. 99, 116-17, 80 S. Ct.
543, 4 L. Ed. 2d 584 (1960); Commissioner v. Walker, 326
F.2d 261, 263 (9th Cir. 1964), aff’g in part, rev’g in part
37 T.C. 962 (1962). The Code taxes “every individual”
on “all income from whatever source derived,” see secs.
1(a)-(c), 61(a), unless the income is specifically excluded,
see generally ch. 1, subch. B, p. III, Items Specifically
Excluded From Gross Income. Indians are subject to the
tax law just like other Americans unless there’s a specific
exclusion in a treaty or statute. Squire v. Capoeman, 351
U.S. 1, 6, 76 S. Ct. 611, 100 L. Ed. 883, 1956-1 C.B. 605
(1956); Superintendent of Five Civilized Tribes, for Sandy
Fox, Creek No. 1263 v. Commissioner, 295 U.S. 418, 421,
55 S. Ct. 820, 79 L. Ed. 1517, 1935-1 C.B. 158 (1935).
History does affect how we construe those exceptions.
The normal maxims —cited almost every day our Court
releases opinions—that deductions “are a matter of
legislative grace,” see, e.g., Indep. Coop. Milk Producers
Ass’n v. Commissioner, 76 T.C. 1001, 1014 (1981), and
that exemptions from tax are strictly construed, see, e.g.,
McCamant v. Commissioner, 32 T.C. 824, 834 (1959), are
displaced a bit when Indians are involved. We construe
treaties and statutes in favor of Indians because courts

48a
Appendix C
have viewed Indians as being in a more vulnerable position
in relation to the United States government. See Choate
v. Trapp, 224 U.S. 665, 675, 32 S. Ct. 565, 56 L. Ed. 941
(1912) (“The construction, instead of being strict, is
liberal; doubtful expressions * * * are to be resolved in
favor of [the Indians]”). “Generally, treaties are construed
more liberally than private agreements and the history,
negotiations, and practical construction adopted by the
parties are all relevant to treaty interpretation. Moreover,
Indian treaties ‘are to be construed, so far as possible, in
the sense in which the Indians understood them.’” Seneca
Nation of Indians v. New York, 382 F.3d 245, 259 (2d
Cir. 2004) (quoting Choctaw Nation of Indians v. United
States, 318 U.S. 423, 432, 63 S. Ct. 672, 87 L. Ed. 877, 97
Ct. Cl. 731 (1943)). Still, we can’t use this canon “to create
favorable rules” for them. Jourdain v. Commissioner, 71
T.C. 980, 990 (1979), aff’d, 617 F.2d 507 (8th Cir. 1980).
With these constraints in mind, we turn to the parties’
arguments.
We start with the Perkinses’ return position. On
their returns, the Perkinses reported their income but
in an explanatory attachment denied it was taxable
under the General Allotment Act of 1887, ch. 119, 24
Stat. 388 (codified as amended at 25 U.S.C. secs. 334,
339, 341, 342, 348, 349, 354, 381 (2012)). 5 As the Perkinses
5. The General Allotment Act divided reservations into
parcels and held the “allotments” in trust for individual Indians.
General Allotment Act of 1887, ch. 119, secs. 1-5, 24 Stat. at 388390; United States v. Anderson, 625 F.2d 910, 912 (9th Cir. 1980).
After the statutory trust period ended, allottees got their land “in
fee, discharged of said trust and free of all charge or incumbrance

49a
Appendix C
later recognized, however, the General Allotment Act
specifically exempted “the reservations of the Seneca
Nation of New York Indians in the State of New York.”
See id. sec. 8, 24 Stat. at 391. That exemption remains in
effect to this day. See 25 U.S.C. sec. 339.6 We agree with
the Commissioner—and now even the Perkinses—that
this Act doesn’t apply to the Perkinses and does not excuse
them from paying tax on the income they earned selling
gravel.
The Perkinses realized this during the audit and
raised some new arguments based on the Nation’s treaties
with the Federal Government. The first of these is the
Canandaigua Treaty. The Perkinses focus our attention
on the part of the treaty that says:
[T]he United States will never claim the * * *
[Seneca Nation’s Treaty-defined lands], nor
disturb the Seneka Nation, nor any of the Six
whatsoever.” General Allotment Act sec. 5, 24 Stat. at 389; see 25
U.S.C. sec. 348 (2012); Squire v. Capoeman, 351 U.S. 1, 3, 76 S. Ct.
611, 100 L. Ed. 883, 1956-1 C.B. 605 (1956); Stevens v. Commissioner,
452 F.2d 741, 745 (9th Cir. 1971), aff’g in part, rev’g in part 54 T.C. 351
(1970) and 52 T.C. 330 (1969). Also at that time “all restrictions as to
sale, incumbrance, or taxation of said land * * * [were] removed.” 25
U.S.C. sec. 349 (2012). Congress likely assumed the Act would bring
about the end of the reservation system, although the more direct
goal was to promote assimilation. Hagen v. Utah, 510 U.S. 399, 42425, 114 S. Ct. 958, 127 L. Ed. 2d 252 (1994) (Blackmun, J., dissenting).

6. The Seneca Nation vehemently opposed allotment of tribal
lands. See Laurence M. Hauptman, “Senecas and Subdividers:
Resistance to Allotment of Indian Lands in New York, 1875-1906”,
9 Prologue: The Journal of the National Archives 105 (1977).

50a
Appendix C
Nations, or of their Indian friends residing
thereon and united with them, in the free use
and enjoyment thereof: but it shall remain
theirs, until they choose to sell the same to the
people of the United States, who have the right
to purchase.
Canandaigua Treaty, art. III, 7 Stat. at 45 (emphasis
added). The Perkinses argue that the guaranty not to
“disturb * * * the free use and enjoyment” of the Seneca
Nation’s land includes a tax exemption for income derived
directly from the land.
The first question here is whether this treaty even
provides rights to individual Indians, rather than to the
Nation as such. Focus on this passage: “[T]he United
States will never claim the * * * [Seneca Nation’s Treatydefined lands], nor disturb the Seneka nation, nor any of
the Six Nations, or of their Indian friends residing thereon
and united with them, in the free use and enjoyment
thereof.” Id.
The District Court read the phrase “or of their
Indian friends residing thereon” as creating rights for the
Perkinses themselves. Perkins, 2017 U.S. Dist. LEXIS
123543, 2017 WL 3326818, at *4. We must respectfully
disagree—the phrase is part of a list that includes the
Nation and any of the other nations of the Iroquois
Confederacy. We don’t think that the phrase “or of their
Indian friends residing thereon and united with them” can
reasonably be read as creating personal rights—the class
of “Indian friends” being limited to those “friends” who
have become “united” with one of the Iroquois nations.

51a
Appendix C
This Court has consistently rejected the argument
that the Canandaigua Treaty creates a tax exemption
for individual members of the constituent nations of the
Iroquois Confederacy. See Sylvester v. Commissioner,
T.C. Memo. 1999-35, 1999 WL 49773, at *2-*3; Maracle
v. Commissioner, T.C. Memo. 1991-98, 61 T.C.M. (CCH)
2083, 2084 (1991); George v. Commissioner, T.C. Memo.
1989-401, 57 T.C.M. (CCH) 1168, 1168-69 (1989); Nephew
v. Commissioner, T.C. Memo. 1989-32, 56 T.C.M. (CCH)
1122, 1123 (1989); see also Lazore v. Commissioner, 11
F.3d 1180, 1182, 1187 (3d Cir. 1993) (finding that the
Canandaigua Treaty did not exempt wages earned by
members of the Mohawk Nation—another party to the
Canandaigua Treaty), aff’g in relevant part T.C. Memo.
1992-404, 1992 WL 163978.
By its express terms, the treaty protects the Seneca
Nation’s lands from being “disturbed”, which is different
from creating a tax exemption. The rest of that sentence—
”it shall remain theirs, until they choose to sell the same
to the people of the United States, who have the right
to purchase”—doesn’t make sense as a tax-exemption
provision, but makes perfect sense as a restriction on
alienation of the Nation’s lands. The inclusion of “Indian
friends residing thereon and united with them” means
that the Nation gets to choose who is a member of the
Nation and perhaps even can be seen as a promise not to
use non-Seneca Indians as putative sellers of Seneca land.
The Court of Federal Claims has also analyzed this
particular provision in the Canandaigua Treaty and
held that excise taxation does not prevent “free use and

52a
Appendix C
enjoyment” by Indians. Cook v. United States, 32 Fed. Cl.
170, 174-75 (1994). This is also how the Supreme Court
has construed similar language in other Indian treaties.
See Superintendent of Five Civilized Tribes, 295 U.S. at
421 (“Non-taxability and restriction upon alienation are
distinct things”). The Eighth Circuit has likewise held
that the promise that land would be free of “molestation
from the United States” meant free from “interference
with the rights of Indians to hunt and otherwise enjoy
their land, not the ‘right’ to be free from federal taxation.”
Jourdain, 617 F.2d at 508-09 (emphasis added) (discussing
the Treaty of Greenville, Aug. 3, 1795, 7 Stat. 49). And
we have ourselves held that a treaty reserving “the right
of taking fish, at all usual and accustomed grounds and
stations” didn’t create a tax exemption for income derived
by using the rights guaranteed by the treaty. Earl v.
Commissioner, 78 T.C. 1014, 1017-18 (1982) (quoting the
Treaty of Medicine Creek, Dec. 26, 1854, 10 Stat. 1132).
But the Perkinses argue there’s more under the
surface in this case. They point out that previous cases that
analyzed the Canandaigua Treaty arose from challenges
by individual Iroquois to the taxation of income from
wages or similar types of income. They say that their
income was different because it was derived from the
Nation’s land. The District Court agreed. See Perkins,
2017 U.S. Dist. LEXIS 123543, 2017 WL 3326818, at *3.
The Perkinses argue that this changes everything, and
they cite several cases that speculated in dicta that the
Canandaigua Treaty “might create an exemption from
taxation on income derived directly from the land.” Lazore,
11 F.3d at 1185 (emphasis added) (discussing Hoptowit v.

53a
Appendix C
Commissioner, 709 F.2d 564 (9th Cir. 1983)); Sylvester,
T.C. Memo. 1999-35, 1999 WL 49773, at *2-*3 (noting
“that none of petitioner’s income was derived directly or
indirectly from the use of Indian land” in ruling that the
income wasn’t exempt under the Canandaigua Treaty)
(emphasis added)). Neither court explained what part of
the treaty or caselaw led it to make these comments.
We can sort out this issue by going back to Capoeman.
The Supreme Court in Capoeman, 351 U.S. at 8-9, held
that the General Allotment Act created an exemption for
“income derived directly” from land if the land is allotted
and still held in trust. Of course, the parties agree that
the General Allotment Act doesn’t directly apply to the
Perkinses, but the Perkinses seem to argue there’s a
general exemption—or perhaps a presumption of some
sort—for exempting all income derived from Indian land.
But Capoeman did not create a general exemption
for all income derived from land. An applicable exemption
from taxation in a treaty or statute is still required.
Capoeman, 351 U.S. at 6 (“Indians are citizens and * * *
in ordinary affairs of life, not governed by treaties * * *,
they are subject to the payment of income taxes as are
other citizens. * * * [T]o be valid, exemptions to tax
laws should be clearly expressed”). The Ninth Circuit
stretched Capoeman to include income derived directly
from land that has been allotted under any other act with
similar language to the General Allotment Act. Stevens v.
Commissioner, 452 F.2d 741 (9th Cir. 1971), aff’g in part,
rev’g in part 54 T.C. 351 (1970) and 52 T.C. 330 (1969).

54a
Appendix C
Still, the “Capoeman exemption applies only to
income derived from allotted land.” Jourdain, 617 F.2d
at 508 (emphasis added). The exemption was intended to
ensure Indians received “unencumbered” land when it was
released from trust and became the property of the Indian
who received the allotment. Wynecoop v. Commissioner,
76 T.C. 101, 106 (1981). It was not intended to benefit
Indians “simply because the income was derived from land
located on an Indian reservation.” Id. And courts before
the District Court’s recent opinion have consistently held
that income derived from common tribal land—as opposed
to allotted land—is taxable. Anderson, 625 F.2d at 914
(income from cattle ranching under a tribal license was
taxable); Fry, 557 F.2d at 648 (income from logging on
reservation land was taxable); Wynecoop, 76 T.C. at 107
(dividends from stock received in exchange for mineral
leases of tribal lands were taxable); see also Holt, 364
F.2d at 41-42; Earl, 78 T.C. at 1019; Jourdain, 71 T.C. at
989; Tonasket v. Commissioner, T.C. Memo. 1985-365, 50
T.C.M. (CCH) 489, 492 (1985).
The land here wasn’t allotted to the Perkinses.
“Allotted” means land set aside in trust for individual
Indians, in contrast to land held by the Nation. See, e.g.,
Capoeman, 351 U.S. at 3. The Perkinses admitted that
the “[g]ravel at [i]ssue was taken from land that was part
of the common lands recognized by federal treaties to be
the territories of the Seneca Nation.” They also admitted
that the “gravel at issue was not taken from land that was
allotted to petitioner-husband during 2008 and 2009.” The
Perkinses wouldn’t admit or deny whether the gravel was
taken from land allotted to Alice, but if the gravel was

55a
Appendix C
taken from common land, it couldn’t have been specifically
allotted to Alice.
The District Court refers to Capoeman but does not
discuss its analysis of the distinction between allotted
and tribal lands or the taxability of income from each.
We therefore must again respectfully disagree with its
holding. We hold instead that the Canandaigua Treaty
doesn’t exempt the Perkinses from paying taxes on the
gravel income.
The Perkinses also say we should understand the
Canandaigua Treaty in light of how the Seneca Nation
understood it. See Jones v. Meehan, 175 U.S. 1, 11, 20 S.
Ct. 1, 44 L. Ed. 49 (1899). Citing Lazore, 11 F.3d at 1186,
the Perkinses argue that the Iroquois understanding
of the Canandaigua Treaty was embodied in the “Two
Row Wampum,” a belt consisting of “two parallel rows
of dark colored beads on a background of lighter colored
beads” signifying “two peoples * * * coexisting peacefully,
neither imposing their laws or religion on the other.” 7
7. As the Perkinses point out, the Iroquois used wampum
belts—belts made from strings of shells or beads—to memorialize
agreements. See, e.g., Colin G. Calloway, “Treaties and Treaty
Making”, in The Oxford Handbook of American Indian History
539, 541 (Frederick E. Hoxie ed., 2016). The Two Row Wampum
initially commemorated a 17th-century agreement between the
Iroquois and the Dutch. Lazore v. Commissioner, 11 F.3d 1180,
1186 (3d Cir. 1993), aff’g in part T.C. Memo. 1992-404. In Lazore,
the court heard testimony explaining that in the Iroquois’ view, the
principles of the Two Row Wampum “were the basis for treaties with
France, Great Britain, and the United States, including the Treaty
of Canandaigua.” Id.

56a
Appendix C
Like the court in Lazore, however, “we are constrained
from finding an exemption in the absence of some textual
support.” Id. at 1187. The Two Row Wampum does not
provide this required support. 8
We now turn to the 1842 Treaty. The Perkinses cite
the following portion of its text:
to protect such of the lands of the Seneca
Indians, within the State of New York, as may
from time to time remain in their possession
from all taxes, and assessment for roads,
highways, or any other purpose until such
lands shall be sold and conveyed by the said
Indians, and the possession thereof shall have
been relinquished by them.
1842 Treaty, art. 9, 7 Stat. at 590 (emphasis added).9 The
Perkinses argue that this treaty explicitly provides a tax
8. Although neither the Perkinses nor Lazore discusses it, we
note that George Washington had a specific wampum belt made to
commemorate the Canandaigua Treaty. See, e.g., Richard W. Hill,
Sr., “Linking Arms and Brightening the Chain: Building Relations
Through Treaties”, in Nation to Nation: Treaties Between the United
States and American Indian Nations 37, 56 (Suzan Shown Harjo
ed., 2014). That belt shows two figures under the roof of a longhouse
linking arms with thirteen figures that represent the original States.
Id. This wampum belt, however, also does not give us the textual
support we need to find a tax exemption.
9. The 1842 Treaty ceded back to the Seneca Nation land it
had previously sold to the Ogden Company, including the Allegany
Territory. See 1842 Treaty, art. 1, 7 Stat. at 587; Hauptman, supra,
at 107.

57a
Appendix C
exemption for income derived from the use of tribal land.
The Second Circuit has held that the 1842 Treaty “clearly
prohibit[s] only the taxation of real property.” United
States v. Kaid, 241 F. App’x 747, 750 (2d Cir. 2007) (citing
Snyder v. Wetzler, 193 A.D.2d 329, 603 N.Y.S.2d 910, 912
(N.Y. App. Div. 1993) (1842 Treaty “clearly refers only to
taxes levied upon real property or land”), aff’d, 84 N.Y.2d
941, 644 N.E.2d 1369, 620 N.Y.S.2d 813 (N.Y. 1994)). In the
Perkinses’ parallel District Court case, after questioning
the precedential import of Kaid,10 Judge Vilardo found
it also lacked persuasive value because Kaid dealt with
products unrelated to Seneca land and the parties in
Kaid were not Indians. Perkins, 2017 U.S. Dist. LEXIS
123543, 2017 WL 3326818, at *5 (“[T]here is no reason
to believe that the [Second Circuit] even thought about
taxing the products of the real property”). Indeed, the
District Court questioned whether real property “can even
be distinguished from the dirt, gravel, and foliage that
comprise it.” Id. We, on the other hand, are persuaded by
the Second Circuit’s reading of the 1842 Treaty, and we
don’t find it difficult to distinguish real property from the
gravel severed from it. Black’s Law Dictionary 1412 (10th
ed. 2014) defines real property as “[l]and and anything
growing on, attached to, or erected on it, excluding
anything that may be severed without injury to the land.”
The gravel wasn’t attached to the land when it was sold,
10. Because Kaid is a summary order published in the Federal
Appendix, Judge Vilardo remarked that it’s not precedential in the
Second Circuit. Perkins, 2017 U.S. Dist. LEXIS 123543, 2017 WL
3326818, at *4 (citing 2d Cir. R. 32.1.1(a) (citation of summary orders)).
We are nonetheless persuaded by the Second Circuit’s reading of
the 1842 Treaty.

58a
Appendix C
so the Perkinses aren’t exempt from tax on the sale of
the gravel under the 1842 Treaty. Cf. In re Briggs Ave.
in New York, 196 N.Y. 255, 89 N.E. 814, 816 (N.Y. 1909)
(a building that is severed from real property becomes
personal property).
That leaves the issue of penalties. The Commissioner
asserted two: a failure-to-timely-file penalty under section
6651(a)(1) and an accuracy-related penalty under section
6662(a).
Section 6651(a)(1) adds 5% per month (up to a
maximum of 25%) to the tax already owed for failure to
file a return on time. The Commissioner has produced the
Perkinses’ 2008 and 2009 returns to show that they were
filed late, so he has met his burden of production. See sec.
7491(c). The Perkinses’ 2008 tax return was due in October
2009 and their 2009 return was due in October 2010. They
didn’t file either until October 2011. The Perkinses also
didn’t address penalties in their brief, so we deem this
issue conceded for that reason as well. See Rule 151(e),
Petzoldt v. Commissioner, 92 T.C. 661, 683 (1989); Tufft
v. Commissioner, T.C. Memo. 2009-59.
The Commissioner also determined that the Perkinses
are liable for accuracy-related penalties under section
6662(a). Section 6662(a) penalizes a taxpayer on the
portion of the underpayment of tax attributable to any
substantial understatement of income tax. Sec. 6662(a), (b)
(2). The Commissioner also has the burden of production
here. Sec. 7491(c). An understatement is substantial if
it exceeds the greater of $5,000 or “10 percent of the

59a
Appendix C
tax required to be shown on the return.” Sec. 6662(d)(1)
(A). The Perkinses’ true tax liability for 2008 is just shy
of $200,000, but they initially didn’t report any taxable
income. For 2009 their correct tax liability is just over
$200,000 but, as for 2008, they originally didn’t report
any taxable income. These understatements are of course
greater than 10% of the tax the Perkinses should have
reported, which is greater than $5,000.
This would ordinarily be enough for us to hold that
the Commissioner has met his burden of production on
the section 6662 penalty. The Second Circuit, however,
recently held in Chai v. Commissioner, 851 F.3d 190, 221
(2d Cir. 2017), aff’g in part, rev’g in part T.C. Memo. 201542, that section 6751(b)(1) “requires written approval of
the initial penalty determination no later than the date
the IRS issues the notice of deficiency * * * asserting such
penalty.” It also held that “compliance with § 6751(b) is
part of the Commissioner’s burden of production and proof
in a deficiency case in which a penalty is asserted.” Id. The
Commissioner has not met even his burden of production
on the section 6662 penalty here, and so we cannot find that
he has established his entitlement to judgment as a matter
of law on this penalty, even though the Perkinses didn’t
make any arguments about the penalty in their brief.11
An appropriate order will be issued.
Reviewed by the Court.
11. The Perkinses also f iled a motion for leave to f ile
supplemental materials, which we will grant. We considered the
supplemental material in this Opinion.

60a
Appendix C
VASQUEZ, MORRISON, BUCH, and NEGA, JJ., agree
with this opinion of the Court.
Concur by: LAUBER (In Part); PUGH (In Part)
LAUBER and PUGH, JJ., concurring in part and
concurring in the result: We agree with the opinion of the
Court that the Canandaigua Treaty, Nov. 11, 1794, 7 Stat.
44, does not exempt from Federal income tax the revenues
of petitioners’ gravel mining business. The opinion of the
Court reaches the same conclusion with respect to the
Treaty with the Seneca, May 10, 1842 (1842 Treaty), 7
Stat. 586, reasoning that it exempts from tax only “the
lands of the Seneca” and that the gravel petitioners
mined is distinct from those lands. But as Judge Foley
convincingly shows in his dissenting opinion, there are
unresolved factual and legal issues as to whether gravel
mined from Indian land is part of Indian land. Although
summary judgment on that theory is inappropriate for
that reason, we would sustain summary judgment for
respondent on two alternative grounds: first, that the
1842 Treaty, like the Canandaigua treaty, did not confer
rights on individual members of the Seneca Nation, and
second, that the 1842 Treaty addresses exemption only
from State, not Federal, taxes.
The opinion of the Court correctly notes that we
should interpret the 1842 Treaty as the Seneca understood
it. Doing so requires understanding the historical
background of the 1842 Treaty and analyzing the language
the parties employed. See Choctaw Nation of Indians v.
United States, 318 U.S. 423, 432, 63 S. Ct. 672, 87 L. Ed.

61a
Appendix C
877, 97 Ct. Cl. 731 (1943). The 1842 Treaty had a very
narrow purpose, namely, to resolve disagreements that
had arisen under a treaty the United States had signed
with the Seneca four years previously. See Treaty at
Buffalo Creek of 1838, 7 Stat. 550 (1838 Treaty). When
the text of the 1842 Treaty is read against this historical
background, it is clear that the 1842 Treaty conferred
rights on the Seneca Nation, not its constituent members,
and that it covers only taxes imposed by the State of New
York.
The land on which petitioners conducted their gravel
mining business is within the Seneca reservation. Before
1838, the Seneca lived on four distinct reservations in
upstate New York: the Buffalo Creek, Cattaraugus,
Allegany, and Tonnewanda reservations. In 1838 the
Seneca sold all four reservations to a pair of private
businessmen, Thomas Ogden and Joseph Fellows, for
$202,000. In the 1838 Treaty, executed concurrently with
the deed of sale,1 it was agreed that the Seneca would
move west of the Mississippi River by April 4, 1845, but
that they could remain on the Allegany and Cattaraugus
reservations until that date. 1838 Treaty, arts. 2, 3, 10, 7
Stat. 550, 551-553.
In 1840 the New York Legislature imposed a highway
tax, and in 1841 it imposed a road tax, on the land (then
owned by Ogden and Fellows) that had constituted the
Allegany and Cattaraugus reservations. Act of May 9,
1. The 1838 treaty was signed on January 15, 1838, but was not
proclaimed until April 4, 1840.

62a
Appendix C
1840, 63d sess., ch. 254, secs. 1 and 2; Act of May 4, 1841,
64th sess., ch. 166, secs. 1, 3. If either tax went unpaid,
the State could impose liens and seize land on which the
Seneca were then residing and on which they had the
right to reside until 1845. The taxes and the enforcement
mechanism were controversial, resulting in a lawsuit that
eventually found its way to the U.S. Supreme Court. See
In re New York Indians, 72 U.S. (5 Wall.) 761, 763-764,
771-772, 18 L. Ed. 708 (1866).
Numerous disagreements on this and other points
arose concerning the proper interpretation of the 1838
Treaty. The 1842 Treaty, which essentially replaced
the 1838 Treaty, was intended to “settle, compromise,
and finally terminate” these “divers questions and
differences.” 1842 Treaty, 7 Stat. at 587 (fifth “whereas”
clause). Under the 1842 Treaty, Ogden and Fellows
retained ownership of the land that formerly constituted
the Buffalo Creek and Tonnewanda reservations. The
Seneca were restored to ownership of the Allegany and
Cattaraugus reservations, but the Treaty vested in Ogden
and Fellows the right to purchase the land comprising
those two reservations when the Seneca moved west. Id.
art. 1. And in lieu of the purchase price stipulated in the
1838 Treaty, the 1842 Treaty provided that the Seneca
would ultimately be paid, for release of the Buffalo Creek
and Tonnewanda reservations, “a just consideration sum”
to be determinated by a panel of arbitrators. Id. arts. 3
and 4, 7 Stat. at 588.
Article 9 of the 1842 Treaty is the provision that
concerns us here. When quoting this provision, see op. Ct.

63a
Appendix C
p. 17, the opinion of the Court omits the first 18 words,
which are quite significant in our view. Article 9 in its
entirety reads as follows:
The parties to this compact mutually agree to
solicit the influence of the Government of the
United States to protect such of the lands of
the Seneca Indians, within the State of New
York, as may from time to time remain in their
possession from all taxes, and assessments for
roads, highways, or any other purpose until
such lands shall be sold and conveyed by the
said Indians, and the possession thereof shall
have been relinquished by them. [Id., 7 Stat.
at 590.]
When this language is read against the historical
context, it seems clear that the 1842 Treaty, like the
Canandaigua treaty, did not create a tax exemption for
individual members of the Seneca Nation. See In re New
York Indians, 72 U.S. at 771-772. Rather, the parties
agreed that the remaining tribal lands—i.e., the lands
comprising the Allegany and Cattaraugus reservations—
would be protected only as long as those lands remained
in the Seneca’s possession. There is no dispute that the
Perkinses mined and sold the gravel to generate income
for themselves, not for the Seneca Nation. The 1842
Treaty, then, has no application to this case.
It also seems clear that the “taxes” to which the 1842
Treaty refers are taxes imposed by the State of New York.
As the opinion of the Court correctly notes, article 9 has
always been interpreted to refer “only to taxes levied upon

64a
Appendix C
real property or land.” See op. Ct. p. 18 (quoting Snyder
v. Wetzler, 193 A.D.2d 329, 603 N.Y.S.2d 910, 912 (N.Y.
App. Div. 1993), aff’d, 84 N.Y.2d 941, 644 N.E.2d 1369, 620
N.Y.S.2d 813 (1994)). In 1842 there was no Federal tax on
real property or land. Indeed, no Federal tax on land had
existed during the previous 26 years. 2
Given the extremely narrow focus of the 1842 Treaty—
to settle disputes that had arisen about interpretation
of the 1838 Treaty—it seems highly unlikely that the
parties intended article 9 to confer immunity from a
Federal tax that did not then exist and had not existed
for a generation. Indeed, article 9 is limited to the lands
of the Seneca Indians “within the State of New York.”
All parties to the 1842 Treaty expected that the Seneca
would eventually move west of the Mississippi River. If
the Seneca had been concerned about the possible future
appearance of a Federal property tax, they presumably
would not have agreed to limit the Federal exemption to
property within New York.
The type of taxes to which article 9 refers is also
instructive. It refers to “assessments for roads, highways,
2. The Fifth Congress enacted the first direct tax on land in
the fixed amount of $2 million. Act of July 9, 1798, 1 Stat. 597. The
Jefferson administration declined to renew the tax (and also repealed
contemporaneously enacted excise taxes). See Act of Apr. 6, 1802, 2
Stat. 148. Other Federal taxes on land, generally imposed in a fixed
amount on a one-time basis, were enacted in 1813, 1815, and 1816,
but then disappeared until the Civil War. Act of Aug. 2, 1813, 3 Stat.
53; Act of Jan. 9, 1815, 3 Stat. 164; Act of Mar. 5, 1816, 3 Stat 255.
See generally Veazie Bank v. Fenno, 75 U.S. (8 Wall.) 533, 542-543,
19 L. Ed. 482 (1869).

65a
Appendix C
or any other purpose” levied on land that “may from
time to time remain in * * * [the Seneca Nation’s]
possession * * * until such lands shall be sold and conveyed
by the said Indians.” Under the 1842 Treaty, the land that
was to remain in the Seneca’s possession consisted of the
Allegany and Cattaraugus reservations, which were the
target of the objectionable highway tax and road tax—i.e.,
“assessments for roads * * * [or] highways”—that the New
York Legislature had enacted in 1840 and 1841. Given
this historical context, article 9 seems clearly designed
to protect the Allegany and Cattaraugus reservations
from New York taxes until the Seneca sold the land and
moved west.
Perhaps most instructive are the introductory words
of article 9, whereby “[t]he parties * * * mutually agree
to solicit the influence of the Government of the United
States to protect * * * the lands of the Seneca Indians”
from taxation. This would be an extremely odd—we would
guess unprecedented—way to express an exemption from
Federal taxation. To start with, a sovereign Government
cannot “influence” itself. If the United States had intended
to confer immunity from Federal taxation in article 9, it
would presumably just have said so. And if the Seneca
had bargained for immunity from Federal taxation, they
presumably would have demanded an explicit statement
to that effect, which the United States (had it intended
to grant such an exemption) could easily have supplied.
The natural interpretation of these introductory
words is that the United States would exercise its influence
to prevent New York from taxing the Seneca’s land, as
the New York Legislature had sought to do in 1840 and

66a
Appendix C
1841. The State of New York was not a party to the 1842
Treaty, and principles of sovereign immunity would have
prevented the United States from attempting to interfere
with an otherwise-constitutional New York tax. 3 The
best the United States could do was to pledge to use
its influence to dissuade New York from taxing Seneca
reservation land while the Seneca continued to occupy it.
This campaign apparently succeeded: In 1857 New York
abolished the 1840 highway tax and the 1841 road tax. See
In re New York Indians, 72 U.S. at 771.
For these reasons, we conclude that article 9 of the
1842 Treaty does not confer immunity from Federal
taxation and does not even address that subject. Like
the rest of the 1842 Treaty, article 9 was intended to
address one of the “divers questions and differences”
that had arisen in the wake of the 1838 Treaty—namely,
New York’s attempt to impose road and highway taxes
on the land comprising the Allegany and Cattaraugus
reservations, ownership of which the 1842 Treaty revested
in the Seneca. In article 9 the United States agreed to
use its influence to prevent New York from taxing the
land within those two reservations so long as the Seneca
continued to occupy that land. That article accordingly
has no application to Federal taxation.
3. See Dobbins v. Comm’rs of Erie Cty., 41 U.S. (16 Pet.)
435, 447, 10 L. Ed. 1022 (1842) (State taxing power “is a sacred
right, essential to the existence of government—an incident of
sovereignty”); M’Culloch v. Maryland, 17 U.S. (4 Wheat.) 316, 436437, 4 L. Ed. 579 (1819) (distinguishing State taxes assessed on
a Federal instrumentality’s land from State taxes imposed on its
constitutionally authorized operations).

67a
Appendix C
Unlike the opinion of the Court, we would not reach the
issue of whether gravel constitutes real property. Instead,
we would grant summary judgment for respondent
because article 9 of the 1842 Treaty conferred rights
on the Seneca Nation, not its constituent members, and
because immunity from Federal taxation was not among
the rights conferred.
MARVEL, GALE, THORNTON, GOEKE, GUSTAFSON,
PARIS, KERRIGAN, and ASHFORD, JJ., agree with this
opinion concurring in part and concurring in the result.
FOLEY, J., dissenting:
The Treaty with the Seneca, May 20, 1842, 7 Stat. 586
(1842 Treaty) states that the United States will “protect
such of the lands of the Seneca Indians, within the State
of New York, as may from time to time remain in their
possession from all taxes”. 1842 Treaty, art. 9, 7 Stat. at 590
(emphasis added). When determining whether summary
judgment is appropriate, we must view all facts in the
light most favorable to the Perkinses (i.e., the nonmoving
party). See Sundstrand Corp. v. Commissioner, 98 T.C.
518, 520 (1992), aff’d, 17 F.3d 965 (7th Cir. 1994). In
addition, “treaties should be construed liberally in favor
of the Indians, with ambiguous provisions interpreted to
their benefit”. County of Oneida v. Oneida Indian Nation
of N.Y., 470 U.S. 226, 247, 105 S. Ct. 1245, 84 L. Ed. 2d
169 (1985) (internal citations omitted). The opinion of the
Court, however, construes the treaty narrowly rather than
liberally and cites United States v. Kaid, 241 F. App’x 747,
750 (2d Cir. 2007), an irrelevant nonprecedential summary
order, and Black’s Law Dictionary as its only authorities.

68a
Appendix C
The opinion of the Court concludes that gravel mined
from Indian land is not part of Indian land, reasoning
that “[t]he gravel wasn’t attached to the land when it was
sold, so the Perkinses aren’t exempt from tax on the sale
of the gravel under the 1842 Treaty.” See op. Ct. p. 18.
More convincingly, the United States District Court for
the Western District of New York stated that
[g]iven the l ibera l pr i nciples of t reaty
construction that apply here, there is no reason
to believe that one rule would apply to taxing
the dirt, gravel, and foliage that make up the
property and another to the property itself—if
“the property” can even be distinguished from
the dirt, gravel, and foliage that comprise it.
Perkins v. United States, No. 16-CV-495(LJV), 2017 U.S.
Dist. LEXIS 123543, 2017 WL 3326818, at *5 (W.D.N.Y.
Aug. 4, 2017). The opinion of the Court’s conclusion, see
op. Ct. p. 18, that it is not “difficult to distinguish real
property from the gravel severed from it” ignores the
complexities relating to mineral rights and property law.
See Watt v. W. Nuclear, Inc., 462 U.S. 36, 55, 103 S. Ct.
2218, 76 L. Ed. 2d 400 (1983) (holding that in the context
of the Stock-Raising Homestead Act of 1916 (SRHA) (since
repealed), “valuable minerals” include gravel); Tyonek
Native Corp. v. Cook Inlet Region, Inc., 853 F.2d 727,
729 (9th Cir. 1988) (analyzing the subsurface and surface
ownership rights of sand and gravel); Res. Conservation
Grp., LLC v. United States, 96 Fed. Cl. 457, 465 (2011)
(holding the Navy correctly determined that embedded
gravel and sand were real property pursuant to 41 C.F.R.

69a
Appendix C
sec. 102-71.20); cf. BedRoc Ltd., LLC v. United States, 541
U.S. 176, 185-186, 124 S. Ct. 1587, 158 L. Ed. 2d 338 (2004)
(declining to extend W. Nuclear, Inc., 462 U.S. at 36, and
holding that sand and gravel were not considered “valuable
minerals” pursuant to the Pittman Underground Water
Act of 1919). Simply put, the opinion of the Court fails to
address the requisite legal and factual issues. Thus, the
grant of summary judgment is not appropriate.

70a
APPENDIX D —Appendix
DENIALDOF REHEARING
OF THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT, DATED
NOVEMBER 16, 2020
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
ORDER
DOCKET NO: 19-2481
ALICE PERKINS, FREDRICK PERKINS,
Petitioners-Appellants,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent-Appellee.
At a stated term of the United States Court of Appeals
for the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the City
of New York, on the 16th day of November, two thousand
twenty.
Appellants, Alice Perkins and Fredrick Perkins, filed
a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal
has considered the request for panel rehearing, and the
active members of the Court have considered the request
for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.

71a
Appendix D
			
			

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

			

/s/Catherine O’Hagan Wolfe

